<html>
<title> - AIRSPACE INTEGRATION OF NEW AIRCRAFT</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
                  AIRSPACE INTEGRATION OF NEW AIRCRAFT

=======================================================================

                                (115-53)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 6, 2018

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
             
             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]             
             


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                             
                             
                             
                         _________ 

            U.S. GOVERNMENT PUBLISHING OFFICE
                   
33-628 PDF            WASHINGTON : 2018                                  
                             
                             


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                         Columbia
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
SAM GRAVES, Missouri                 ELIJAH E. CUMMINGS, Maryland
ERIC A. ``RICK'' CRAWFORD, Arkansas  RICK LARSEN, Washington
LOU BARLETTA, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
BOB GIBBS, Ohio                      GRACE F. NAPOLITANO, California
DANIEL WEBSTER, Florida              DANIEL LIPINSKI, Illinois
JEFF DENHAM, California              STEVE COHEN, Tennessee
THOMAS MASSIE, Kentucky              ALBIO SIRES, New Jersey
MARK MEADOWS, North Carolina         JOHN GARAMENDI, California
SCOTT PERRY, Pennsylvania            HENRY C. ``HANK'' JOHNSON, Jr., 
RODNEY DAVIS, Illinois               Georgia
MARK SANFORD, South Carolina         ANDRE CARSON, Indiana
ROB WOODALL, Georgia                 RICHARD M. NOLAN, Minnesota
TODD ROKITA, Indiana                 DINA TITUS, Nevada
JOHN KATKO, New York                 SEAN PATRICK MALONEY, New York
BRIAN BABIN, Texas                   ELIZABETH H. ESTY, Connecticut, 
GARRET GRAVES, Louisiana             Vice Ranking Member
BARBARA COMSTOCK, Virginia           LOIS FRANKEL, Florida
DAVID ROUZER, North Carolina         CHERI BUSTOS, Illinois
MIKE BOST, Illinois                  JARED HUFFMAN, California
RANDY K. WEBER, Sr., Texas           JULIA BROWNLEY, California
DOUG LaMALFA, California             FREDERICA S. WILSON, Florida
BRUCE WESTERMAN, Arkansas            DONALD M. PAYNE, Jr., New Jersey
LLOYD SMUCKER, Pennsylvania          ALAN S. LOWENTHAL, California
PAUL MITCHELL, Michigan              BRENDA L. LAWRENCE, Michigan
JOHN J. FASO, New York               MARK DeSAULNIER, California
A. DREW FERGUSON IV, Georgia         STACEY E. PLASKETT, Virgin Islands
BRIAN J. MAST, Florida
JASON LEWIS, Minnesota
MIKE GALLAGHER, Wisconsin
VACANCY

                                  (ii)

  


                        Subcommittee on Aviation

                FRANK A. LoBIONDO, New Jersey, Chairman

DON YOUNG, Alaska                    RICK LARSEN, Washington
JOHN J. DUNCAN, Jr., Tennessee       EDDIE BERNICE JOHNSON, Texas
SAM GRAVES, Missouri                 DANIEL LIPINSKI, Illinois
BOB GIBBS, Ohio                      ANDRE CARSON, Indiana
DANIEL WEBSTER, Florida              CHERI BUSTOS, Illinois
JEFF DENHAM, California              ELEANOR HOLMES NORTON, District of 
THOMAS MASSIE, Kentucky              Columbia
MARK MEADOWS, North Carolina         DINA TITUS, Nevada
SCOTT PERRY, Pennsylvania            SEAN PATRICK MALONEY, New York
RODNEY DAVIS, Illinois               JULIA BROWNLEY, California
MARK SANFORD, South Carolina         DONALD M. PAYNE, Jr., New Jersey
ROB WOODALL, Georgia                 BRENDA L. LAWRENCE, Michigan
TODD ROKITA, Indiana                 MICHAEL E. CAPUANO, Massachusetts
BARBARA COMSTOCK, Virginia           GRACE F. NAPOLITANO, California
DOUG LaMALFA, California             STEVE COHEN, Tennessee
BRUCE WESTERMAN, Arkansas            HENRY C. ``HANK'' JOHNSON, Jr., 
LLOYD SMUCKER, Pennsylvania          Georgia
PAUL MITCHELL, Michigan, Vice Chair  RICHARD M. NOLAN, Minnesota
JASON LEWIS, Minnesota               PETER A. DeFAZIO, Oregon (Ex 
VACANCY                              Officio)
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)
                                 
                                 

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               WITNESSES

Shelley J. Yak, Director, William J. Hughes Technical Center, 
  Federal Aviation Administration, accompanied by Jay Merkle, 
  Deputy Vice President, Program Management Organization, Air 
  Traffic Organization, Federal Aviation Administration:

    Oral statement...............................................     7
    Prepared statement...........................................     9
Thomas Prevot, Director of Engineering, Airspace Systems, Uber 
  Technologies, Inc.:

    Oral statement...............................................    13
    Prepared statement...........................................    15
JoeBen Bevirt, Founder and Chief Executive Officer, Joby 
  Aviation:

    Oral statement...............................................    16
    Prepared statement...........................................    18
Mariah Scott, President, Skyward, A Verizon Company:

    Oral statement...............................................    20
    Prepared statement...........................................    22

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Hon. Rick Larsen of Washington...................................     4

                       SUBMISSIONS FOR THE RECORD

Prepared statement of Chris Rittler, CEO, Cape Productions.......    53

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                  AIRSPACE INTEGRATION OF NEW AIRCRAFT

                              ----------                              


                      THURSDAY, SEPTEMBER 6, 2018

                  House of Representatives,
                          Subcommittee on Aviation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:02 a.m., in 
room 2167, Rayburn House Office Building, Hon. Frank A. 
LoBiondo (Chairman of the subcommittee) presiding.
    Mr. LoBiondo. Good morning. The subcommittee will come to 
order.
    Without objection, the Chair is authorized to declare a 
recess at any time.
    We are in the early days of a technological revolution that 
will transform the aviation industry and our national airspace. 
In recent years, we have witnessed the growing use of unmanned 
aerial aircraft, or drones, to improve many different sectors 
of our economy, including infrastructure, energy, emergency 
response, and agriculture.
    This committee has met a number of times to discuss the 
opportunities and challenges, including regulatory and safety 
issues, that will come with drones. More recently, we have 
heard from developers of new ``flying car'' aircraft. These 
aircraft may soon fly commuters and across-town travelers above 
congested highways, bridges, and roads in our cities.
    It was not long ago that flying cars only existed in 
science fiction. These aircraft will carry three or four people 
short distances, fly a couple of thousand feet up, and share 
similar flight technology to drones. It is an exciting time for 
the aviation industry in the United States.
    Other countries see this potential as well. For example, at 
the end of August, the Japanese Government convened a meeting 
in Tokyo that included 21 private companies to develop a plan 
for introducing flying cars there in the next decade. This 
meeting included American and European companies, in addition 
to Japanese firms. Companies participating range from tech 
companies and airlines to airspace and automobile giants that 
we all know.
    And Japan is not the only country embracing this new 
transportation initiative. Firms in China are also looking to 
establish themselves as leaders. The United States must be 
active in order to maintain its global leadership in aviation. 
That means that the Federal Aviation Administration needs to 
stay ahead of these new technological advancements.
    One thing that remains unchanged in the face of these 
developments is that our number one priority has been, is, and 
will be safety. To both ensure safety and maintain our 
leadership in aviation, we must systematically address a number 
of issues. Today we begin with how we safely and efficiently 
integrate new users into the National Airspace System.
    Each day, thousands of conventional aircraft fly at 
altitudes that can often be measured in miles and fly between 
airports located in many of our communities. UAS and flying 
cars will fly at altitudes much closer to the ground and more 
often than not operate from places other than airports.
    These differences raised at least a couple of initial 
questions of how UAS and flying cars integrate into the 
airspace. First, how will these aircraft physically fit and 
operate within the three-dimensional airspace and be kept at 
safe distances from other aircraft, buildings, and people on 
the ground in urban and other environments?
    The second big question relates to air traffic control 
systems. Air traffic control and conventional aircraft rely on 
a number of procedures, including extensive voice 
communications between pilots and controllers over the radio. 
Flying cars and UAS will be far different. The concept is that 
highly automated systems on these aircraft will communicate 
with other highly automated systems on the ground, such as UAS 
traffic management, with less human intervention.
    So the question here is, how will the new aircraft and 
systems incorporate with existing ones and also with each 
other? While those are big questions around airspace 
integration, there are others. In recent months, we have seen 
growing interest in more use of counter-UAS systems in the face 
of an emerging risk posed by unlawfully operated drones. There 
are many unknowns about the use of counter-UAS systems, which 
could impact avionics and air traffic control. Flying cars and 
lawfully operated UAS could also be impacted.
    Fortunately for us, there are bright and creative people 
applying their talents to realize the benefits of UAS and 
flying cars in both the private and public sectors. These 
include efforts being undertaken in my district by the FAA's 
premier flagship technical facility in Egg Harbor Township, New 
Jersey, to advance airspace integration. We appreciate all the 
work that the industry and the FAA are doing at the FAA Tech 
Center to make safe integration of new aviation technologies a 
reality.
    As this subcommittee continues to look ahead, it is 
important that industry engage with the members of this panel. 
There are exciting issues, and I look forward to hearing from 
our distinguished panel of witnesses.
    Now, I would like to recognize Mr. Larsen for any opening 
statement.
    Mr. Larsen. Thank you, Mr. Chairman, and thanks for calling 
today's hearing.
    This morning we are discussing issues related to the 
integration of new and emerging users into the U.S. airspace. 
The chairman and I have ensured this precise topic be a focus 
of the subcommittee's oversight work in recent years and with 
the particular emphasis on unmanned aircraft, which we are here 
to discuss today.
    And I am pleased that we will also explore the next new 
thing that may soon take the skies: passenger drones. Two of 
the panelists today will describe how the previously 
unthinkable and only imagined in shows that I watched growing 
up, like ``The Jetsons,'' is pressing forward at a rapid pace 
and will soon change how the national airspace is used.
    According to a recent industry scorecard, U.S. drivers 
spend, on average, more than 40 hours each year in traffic 
during peak hours. Traffic congestion not only costs U.S. 
drivers more than $300 billion each year but results in wasted 
hours and lost productivity. It takes a toll on air quality and 
the environment as well. This is something with which my 
constituents are all too familiar.
    A 2017 industry study found commuters around the city of 
Everett in the district I represent spent more time stuck in 
traffic gridlocks than anyone else in the country. So, yes, we 
are better than Washington, DC, but barely.
    But with recent advances in design and technology happening 
in places like Washington State, more than 50 passenger drone 
concepts are reportedly in development and testing. Such 
concepts have the potential to reduce traffic congestion and 
the demand on roads and bridges nationwide by carrying 
commuters through the air at low altitudes.
    Some of the new concepts aimed to fly in U.S. airspace by 
2020, but before that occurs, several issues need to be 
explored. For instance, how and where will they operate? How 
will Congress ensure operations are safe for those in the 
aircraft and for people and property on the ground? We are 
already seeing the risks unauthorized use of small UAS pose to 
the aviation system. So in considering passenger drones, safety 
must be paramount.
    Another important question is how and when will the FAA 
develop a comprehensive regulatory framework to integrate these 
operations in the U.S. airspace? Is the FAA on track to 
accommodate this fast-paced industry so the U.S. remains 
globally competitive? There may be lessons learned from the 
FAA's efforts to integrate drones.
    Initially, when the FAA was not keeping pace with the 
global stage, U.S. drone companies threatened to go abroad for 
testing, development, and deployment. What can be done here to 
prevent that from happening with this new technology? Is there 
a role for Congress? And, finally, how will the passenger drone 
concepts we explore today become accessible and realistic 
options for all once deployed in cities across the Nation?
    So I look forward to exploring these topics today with the 
panelists and, of course, look forward to discussing continued 
integration issues associated with unmanned aircraft.
    With that, Mr. Chairman, I will submit the rest of my 
comments for the record, and look forward to the panelists.
    [Mr. Larsen's prepared statement follows:]

                                 <F-dash>
          Prepared Statement of Hon. Rick Larsen of Washington
    Thank you, Chairman LoBiondo, for calling today's hearing on 
``Airspace Integration of New Aircraft.''
    This morning, we are discussing issues related to the integration 
of new and emerging users into U.S. airspace.
    Chairman LoBiondo and I have ensured this precise topic be a focus 
of this subcommittee's oversight work in recent years, and with a 
particular emphasis on unmanned aircraft, which we are here to discuss 
today.
    I am pleased we will also explore the next ``new thing'' that may 
soon take to the skies: passenger drones.
    Two of the panelists today will describe how the previously 
unthinkable, only imagined in shows like ``The Jetsons,'' is pressing 
forward at a rapid pace and will soon change how the national airspace 
is used.
    According to a recent industry scorecard,\1\ U.S. drivers spend, on 
average, more than 40 hours each year in traffic during peak hours.
---------------------------------------------------------------------------
    \1\ INRIX, INRIX 2017 Global Traffic Scorecard, http://inrix.com/
scorecard/ (last visited Aug. 29, 2018).
---------------------------------------------------------------------------
    This traffic congestion not only costs U.S. drivers more than $300 
billion each year, but results in wasted hours and lost productivity. 
It takes a toll on air quality and the environment as well.
    This is something with which my constituents are all too familiar.
    A 2017 industry study found commuters around the city of Everett, 
in the district I represent, spent more time stuck in traffic gridlocks 
than anyone else in the country.\2\
---------------------------------------------------------------------------
    \2\ INRIX, Los Angeles Tops INRIX Global Congestion Ranking, http:/
/inrix.com/press-releases/scorecard-2017/ (last visited Sep. 4, 2018).
---------------------------------------------------------------------------
    But with recent advances in design and technology, happening in 
places like Washington State, more than 50 passenger drone concepts are 
reportedly in development and testing.
    Such concepts have the potential to reduce traffic congestion and 
the demand on roads and bridges nationwide by carrying commuters 
through the air, at low altitudes.
    Some of the new concepts aim to fly in U.S. airspace by 2020, but 
before that occurs, several issues need to be explored.
    For instance, how and where will passenger drones operate? How will 
Congress ensure operations are safe for those in the aircraft and for 
people and property on the ground?
    We are already seeing the risks unauthorized use of small UAS pose 
to the aviation system.
    When considering passenger drones, safety must be paramount.
    Another important question is how and when will the Federal 
Aviation Administration (FAA) develop a comprehensive regulatory 
framework to integrate these operations into U.S. airspace?
    Is the FAA on track to accommodate this fast-paced industry so the 
U.S. remains globally competitive?
    There may be lessons learned from the FAA's efforts to integrate 
drones.
    Initially, when the FAA was not keeping pace with the global stage, 
U.S. drone companies threatened to go abroad for testing, development 
and deployment. What can be done to prevent that from happening here? 
Is there a role for Congress?
    And finally, how will the passenger drone concepts we explore today 
become accessible and realistic options for all once deployed in cities 
across the nation?
    I look forward to exploring these topics with today's panelists.
    And of course, I look forward to discussing continued integration 
issues associated with unmanned aircraft.
    There is no denying the extensive public and commercial benefits of 
unmanned aircraft and their applications continue to grow. For example, 
unmanned aircraft have been used to perform inspections of critical 
infrastructure, including bridges and railroads, and to assist in 
recovery efforts following recent natural disasters and wildfires.
    In 2012, Congress directed the FAA to safely and efficiently 
integrate unmanned aircraft into the National Airspace System. While 
integration efforts and collaboration between the FAA and industry are 
ongoing, we are still far from full integration.
    For example, just over 2 years ago, the FAA released the long-
awaited final rule on small commercial UAS operations (part 107), which 
significantly expanded and standardized the ability to conduct 
commercial UAS activities in the United States.
    While this was a great first step toward integration, part 107 
falls short in several ways.
    For example, part 107 includes a waiver process that UAS operators 
must follow in order to fly more advanced and complex operations.
    An industry group released analysis last week finding that since 
the FAA released part 107, the agency has granted more than 1,800 
waivers, with only 23 waivers issued for beyond visual line of sight 
operations and only 13 for flights over people.\3\
---------------------------------------------------------------------------
    \3\ Association for Unmanned Vehicle Systems International (AUVSI, 
Waivers Under Part 107: Interactive Report, https://www.auvsi.org/our-
impact/waivers-under-part-107-interactive-report (last visited Aug. 29, 
2018).
---------------------------------------------------------------------------
    A case-by-case waiver process is not sustainable to keep pace with 
an industry rapidly growing.
    While the FAA moves forward with UAS integration efforts, it 
remains imperative that both commercial and recreational users operate 
these aircraft safely.
    This is one of the reasons the FAA's UAS Integration Pilot Program 
(IPP) is important. It provides an opportunity for the agency, as well 
as State and local governments, to partner with the private sector to 
ensure safe UAS integration and help better craft regulations.
    Further, I remain concerned about the increasing risks of UAS 
collisions with manned aircraft, as well as incursions with critical 
infrastructure and other mishaps.
    I hope to hear from the FAA today about what Congress can do to 
resolve these safety concerns and ensure the agency has what it needs 
to help advance further integration efforts.
    Whether it is UAS or passenger drones, this type of innovation is 
why the United States remains the world leader in aviation.
    I welcome our panelists' perspectives on how this subcommittee can 
help ensure the aviation industry continues to innovate and thrive.
    Again, thank you Chairman LoBiondo for calling today's hearing. I 
look forward to this discussion.

    Mr. LoBiondo. Thank you, Rick.
    We are pleased to have Ranking Member Peter DeFazio with 
us.
    Peter, do you have any opening remarks?
    Mr. DeFazio. Thank you, Mr. Chairman. Yes, I do, briefly.
    First, I want to congratulate you on holding this hearing, 
and perhaps it will be the last hearing over which you preside 
on this subcommittee. And I want to thank you for your great 
work, and I have enjoyed working with you, and I am sure you 
won't be a stranger. So thanks.
    Mr. LoBiondo. Thank you.
    Mr. Graves of Missouri. You didn't say that to me 
yesterday.
    Mr. DeFazio. What is that?
    Mr. Graves of Missouri. You didn't say that to me 
yesterday.
    Mr. DeFazio. Well, you are not leaving, so far as I know, 
Sam, unless we come up with a candidate in your district. Oh, 
presiding, yeah, OK, I could have said that, but I am just 
not--I am not measuring the drapes yet.
    So anyway, this is a really important hearing. I mean, it 
is mind-boggling to read about, you know, what Uber is 
anticipating, what Joby is far along in developing in terms of 
new forms of transport which could help solve congestion.
    Yesterday we held a hearing on technology, and there are 
things which can mitigate ground congestion, but they aren't 
ultimately going to resolve it. And as we continue to grow in 
population and density, we will be back at this point 10 or 15 
years from now, even if the technology can mitigate the ground 
congestion. So new solutions are warranted, and there is 
certainly a lot of potential in what we will hear today.
    The key thing will be the safe integration into the 
existing controlled and uncontrolled airspace. You know, we are 
making progress on UTM and LAANC, and, you know, we will hear 
from Skyward today, who is working on those issues, which is 
absolutely critical.
    It is kind of interesting that Oregon, which isn't--
although Portland is getting to be kind of a mess, but one of 
the most congested places in the country has pioneered in some 
of these technologies. The first demonstration I ever saw of 
ADS-B was a company in Salem, Oregon, and now we have Skyward 
in Portland working on this extraordinary new integration for 
less traditional operations commercially.
    And I can't help but to again make a point that the key 
thing--and we will hear from the FAA today here--is that we 
need to be able to regulate so-called model aircraft. Now, the 
model aircrafters, who are a responsible, longstanding group of 
people--you know, I started out with the little balsa wood 
planes with the little engines that wouldn't work, and I know 
what they are doing.
    But at some point they became petrified that the FAA, which 
wasn't considering regulating them, was going to regulate them 
in ways that were detrimental, and they got my Republican 
colleagues to put a very broadly worded provision in an FAA 
bill which prohibits any regulation of model aircraft, which 
includes over 1 million drones that have been sold in the 
United States of America.
    What is the problem there? Well, just last week when I was 
home, we had to ground all the aircraft fighting the 
Terwilliger fire about 25 miles from my house because some jerk 
flew his toy drone into the controlled and prohibited airspace. 
The sheriff said, we don't know who the person is or where it 
came from. We can't do anything about it. So even though we 
have upped the fines, doesn't matter.
    And I got a provision in the FAA bill that came out of the 
House that would allow reasonable regulation and operator 
identification of these drones. It is critical that we take 
that step. There is a competing amendment that won't get the 
job done put in by the Chinese toy manufacturers.
    So I would hope that Congress in its wisdom decides that we 
are going to go down the path of sanity here and allow real 
regulation, real identification, and not have to wait until we 
go back 20, 25 years ago when we used to call the FAA the--they 
said they had a tombstone mentality. They investigated and 
fixed things after we lost a passenger aircraft. We don't want 
to go back to those days, but that is going to happen with one 
of these drones being illegally and improperly operated, 
whether it is maliciously or someone who is just a jerk.
    So anyway, I just thought I would take the opportunity to 
raise that point again since we are sort of having a conference 
with the Senate which sort of almost kind of did an FAA bill 
but now says they had 90 amendments that would have been 
adopted if they had taken it up, so therefore we have to deal 
with all their 90 amendments that never were adopted and were 
never taken up on the floor of the Senate. So I am not sure we 
get to resolution.
    Anyway, with that, thanks for being here.
    Mr. LoBiondo. OK. Thank you, Peter.
    I would like to now welcome our distinguished panel of 
witnesses. First on the list is Ms. Shelley Yak, who is 
Director of the Federal Aviation Administration Technical 
Center. I am going to take a moment of personal privilege 
because those of you who have attended any of these hearings or 
meetings know that whenever I get the chance.
    The FAA Technical Center that Shelley is the Director of is 
the premier facility in the world for safety, security, 
research, and development. There are somewhere between 3,500 
and 4,000 incredible people who dedicate themselves each and 
every day to keeping America first. Shelley has done an 
excellent job, and we welcome you, Shelley, today.
    Jay Merkle, Deputy Vice President of the Program Management 
Organization for FAA's Air Traffic Organization; Mr. Tom 
Prevot, director of engineering, airspace systems for Uber 
Elevate; JoeBen Bevirt, founder and chief executive officer of 
Joby Aviation; and Mariah Scott, president of Skyward.
    Thank you all for being here. Your full statements will be 
submitted into the record. We ask you to do your best to keep 
your opening statement to about 5 minutes, and we will proceed.
    Shelley, you are up first.

   TESTIMONY OF SHELLEY J. YAK, DIRECTOR, WILLIAM J. HUGHES 
TECHNICAL CENTER, FEDERAL AVIATION ADMINISTRATION, ACCOMPANIED 
   BY JAY MERKLE, DEPUTY VICE PRESIDENT, PROGRAM MANAGEMENT 
   ORGANIZATION, AIR TRAFFIC ORGANIZATION, FEDERAL AVIATION 
    ADMINISTRATION; THOMAS PREVOT, DIRECTOR OF ENGINEERING, 
   AIRSPACE SYSTEMS, UBER TECHNOLOGIES, INC.; JOEBEN BEVIRT, 
FOUNDER AND CHIEF EXECUTIVE OFFICER, JOBY AVIATION; AND MARIAH 
          SCOTT, PRESIDENT, SKYWARD, A VERIZON COMPANY

    Ms. Yak. Thank you for your kind words.
    Good morning, everyone. Good morning, Chairman Shuster, 
Chairman LoBiondo, Ranking Member DeFazio, Ranking Member 
Larsen, and the members of the subcommittee. Thank you for the 
opportunity to appear before you today to discuss the FAA 
William J. Hughes Technical Center and the work that our 3,000 
employees and contractors do to facilitate new entrants, new 
users, new technologies into the National Airspace System, or 
the NAS.
    My name is Shelley Yak. I am the Director of the technical 
center and the FAA's Director of Research. Accompanying me 
today is Jay Merkle. He is the Deputy Vice President of the 
Program Management Organization within the Air Traffic 
Organization. His organization is responsible for implementing 
next generation air transportation system programs and 
sustaining the NAS system.
    From 1958 to the present, many of the complex technologies 
and systems in the NAS were researched, developed, tested, and 
began their nationwide deployment at the technical center 
through its unique research, engineering, testing, evaluation, 
and deployment platforms.
    We are able to accomplish these tasks because we are 
responsible for managing and operating a one-of-a-kind Federal 
laboratory. Our workforce is composed of world-class and world-
renowned engineers, scientists, mathematicians, and technical 
experts. We do our work through partnerships with industry, 
academia, and other Government agencies.
    The technical center has two primary missions: to support 
the advancement of the next generation air transportation 
system and to sustain the operation of our NAS. In other words, 
we keep the NAS operating and running while we are also 
building our future.
    The technical center is the place where we turn ideas into 
value and problems into solutions. The work we do at the center 
ensures that the United States continues to lead the world in 
embracing, implementing, and integrating new technology such as 
unmanned aircraft systems into the NAS.
    Unmanned aircraft systems, or the UAS, are at the forefront 
of change in the aviation industry. The need for us to fully 
integrate this technology into the NAS continues to be a 
national priority. In the past few years, we have witnessed the 
exponential growth of UAS technologies and market applications. 
And we know that the research must keep pace in supporting 
their full integration.
    FAA's research portfolio in total contains six research 
domain areas, which support and align with our UAS integration 
roadmap. For example, the FAA's airport infrastructure and 
technologies research traditionally includes pavement and 
terminal area research, now includes research on the potential 
uses of UAS in an airport environment.
    Our aircraft safety assurance research area focuses on 
aircraft systems and materials, propulsions, and fuels, 
including fire safety, which also addresses lithium batteries. 
And our digital systems and technologies domain research 
researches communication links, electronic systems, and 
cybersecurity, all topics relevant to UAS and urban air 
mobility.
    Also applicable is our environment and weather impact 
mitigation research on weather, icing, noise, and emissions, 
and our human aeromedical factors research on operator training 
and digital interface requirements.
    The sixth domain, aviation performance and planning, brings 
it all together. This domain performs research on improvements 
in air traffic management and integrating new entrants into the 
NAS.
    In addition to the work in these areas, the UAS integration 
pilot program has been busy accelerating drone technology. This 
past May, Secretary Chao selected 10 State, local, and Tribal 
governments, each partnering with private sector entities, to 
participate in the program. This month, awardees across four 
different States successfully flew drones demonstrating the 
innovative ways drones may assist their communities. These 
areas include long-distance drone delivery, agriculture, and 
infrastructure inspections, and even wildlife management.
    Throughout our history, FAA has adapted to changes in 
technology and has successfully integrated new operations and 
equipment into the NAS. Working together with you, Congress, 
and our stakeholders, we are confident we can balance safety 
and security with innovation.
    Finally, before I conclude, I would like to take a moment 
to acknowledge the support of Chairman Shuster and subcommittee 
chairman, Mr. LoBiondo. You have both been instrumental in 
providing the FAA with the direction and necessary resources to 
maintain our position as a global leader in aviation. On behalf 
of the 3,000 employees at the center and all FAA employees, I 
thank you both for your leadership, and wish you well as you 
retire from Congress.
    This concludes my statement. Jay and I will be happy to 
answer your questions at this time.
    [Ms. Yak's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Shelley J. Yak, Director of the William J. Hughes 
           Technical Center, Federal Aviation Administration
    Chairman LoBiondo, Ranking Member Larsen, Members of the 
Subcommittee:
    Thank you for the opportunity to speak with you today about the 
role of the Federal Aviation Administration's (FAA) William J. Hughes 
Technical Center in facilitating new entrants, new users, and new 
technologies into the National Airspace System (NAS). Accompanying me 
today is Peter ``Jay'' Merkle, the Deputy Vice President of the Program 
Management Organization (PMO) within the Air Traffic Organization 
(ATO). The PMO is responsible for implementation of all Next Generation 
Air Transportation System (NextGen) program activity; all NAS 
communications; navigation, weather, surveillance and automation 
modernization programs; and all service life extensions to legacy NAS 
sensors, communications and navigation aids.
                   william j. hughes technical center
    The Technical Center has served as one of the core facilities for 
sustaining and modernizing the air traffic management system, and for 
advancing programs to enhance aviation safety, efficiency, and capacity 
since 1958. It is the Nation's premier air transportation system 
Federal laboratory. The Technical Center's highly technical and diverse 
workforce carries out activities to support the full system/service 
development lifecycle--from conducting research and development, 
testing and evaluation, verification and validation, to operational 
sustainment and decommissioning.
    The Technical Center's staff develops scientific solutions to 
current and future air transportation safety, efficiency, and capacity 
challenges. Our engineers, scientists, mathematicians, and technical 
experts utilize a robust, one-of-a-kind, world-class laboratory 
environment to identify integrated system solutions for the 
modernization and sustainment of the NAS. Automatic Dependent 
Surveillance Broadcast (ADS-B), En Route Automation Modernization 
(ERAM) and Data Communications (Data Comm) were all developed, tested 
and began their nationwide deployment at the Technical Center through 
its engineering, testing, evaluation, and deployment platforms.
    The Technical Center replicates the entire NAS, with the capability 
to support not only NextGen, but all aviation systems. The Technical 
Center's areas of focus include air traffic management, communications, 
navigation, surveillance, aeronautical information, weather, human 
factors, airports, and aircraft safety. More recently, the Technical 
Center has been instrumental in the FAA's efforts to facilitate new 
entrants and users to the NAS; particularly, unmanned aircraft systems 
(UAS or drones).
                    faa's vision for uas integration
    Future aviation operations must accommodate the increasing demand 
for airspace access by traditional civil aviation users as well as new 
entrants. UAS are at the forefront of change in the aviation industry. 
They are being used today to inspect infrastructure, provide emergency 
response support, survey agriculture, and to go places that are 
otherwise dangerous for people or other vehicles. Entrepreneurs around 
the world are exploring innovative ways to use drones in their 
commercial activities. To date, we have processed over 1.1 million UAS 
registrations, over 230,000 of which are for unmanned aircraft that can 
be flown commercially. For perspective, as of July 2018, there are just 
under 300,000 manned aircraft listed on the U.S. registry. The need for 
us to fully integrate this technology into the NAS continues to be a 
national priority.
    The Department of Transportation and FAA's vision for integration 
is ambitious. We intend to fully integrate UAS into the most complex 
airspace system in the world, enabling UAS to operate harmoniously with 
manned aircraft, occupying the same airspace and using many of the same 
standards and procedures. Two years ago, we established the regulatory 
framework-- and set the global standard--for small UAS integration. Our 
roadmap for full UAS integration is intended to enable increasingly 
more complex UAS operations over time: (1) operations over people; (2) 
operations beyond the visual-line-of-sight of the operator; (3) small 
UAS package delivery operations; (4) routine/scheduled operations; (5) 
large carrier cargo operations; and, finally, (6) passenger transport 
operations.
                        research and development
    As the FAA's Director of Research, I oversee the FAA's aviation 
research and development (R&D) activities. Effective research enables 
the FAA's mission to provide the safest, most efficient aerospace 
system in the world. As new technologies change the aviation industry, 
our approach to research must evolve as well. Emerging innovations, 
such as UAS, require an agile research and development strategy focused 
on change driven by technology and collaborative, data-driven 
partnerships across government and with industry and academia. Through 
this collaboration, we will continue building on our unparalleled 
safety record, while increasing the efficiency of our system and more 
fully integrating new users.
    With the exponential growth of UAS technologies and market 
applications we have witnessed in just a few years, we know that 
research must keep pace to support full integration. We are aligning 
our UAS research activities with our integration roadmap. Safety is and 
will always be the FAA's first priority, and continued support for UAS 
research initiatives will ensure that UAS are integrated into the NAS 
in a safe, secure, and efficient manner.
    UAS research activities are coordinated across many different types 
of entities, including internal FAA organizations, different U.S. 
Government agencies, and nongovernmental entities that perform 
collaborative research to support the FAA's overall integration 
objectives. Coordination with each type of entity includes the 
identification of research needs and current research, governance for 
continuous cooperation, and mechanisms for managing progress and 
results. Issues and considerations being addressed include detect and 
avoid standards and technologies, collision avoidance standards, 
command and control standards and technologies, human factors, severity 
thresholds (for example, impact effects), automation/autonomy, and wake 
turbulence effects. One example of this coordination is the UAS 
Standardization Collaborative (UASSC), co-chaired by the FAA and the 
Association for Unmanned Vehicle Systems International (AUVSI) and 
managed by the American National Standards Institute (ANSI). UASSC 
brings together over 230 members from the user applications, 
manufacturer, safety and emergency response, academic and government 
communities to accelerate development of standards and conformity 
assessment programs to facilitate the safe integration of UAS into the 
NAS.\1\
---------------------------------------------------------------------------
    \1\ https://www.ansi.org/standards_activities/
standards_boards_panels/uassc/overview#UASSC%20Overview
---------------------------------------------------------------------------
    The FAA's NextGen organization also has appointed a UAS portfolio 
manager to unify and manage all UAS R&D execution. The UAS R&D 
portfolio includes UAS research conducted at the Technical Center, the 
Center of Excellence for UAS, interagency UAS partnerships, UAS flight 
demonstrations and test sites, and all aviation safety research defined 
by the Office of Aviation Safety through the FAA's UAS Integration 
Office. Additionally, the FAA's ATO is developing concepts and 
requirements to address FAA challenges associated with the provision of 
air traffic services to UAS airspace users.
    The FAA is also gathering operational data and experience that will 
inform future rulemaking to enable UAS operations over people and 
beyond line-of-sight. While the small UAS rule--14 C.F.R. part 107--has 
been largely successful by enabling operations such as crop monitoring/
inspection; research and development; educational/academic uses; power-
line/pipeline inspection; antenna inspections; emergency response; 
bridge inspections; aerial photography; and wildlife nesting area 
evaluations, it does not permit several potential uses for UAS that are 
highly valued by industry, such as operating beyond line-of-sight or at 
night. To accommodate these operations, the rule allows operators to 
apply for waivers from its provisions. As of August 2018, the FAA has 
reviewed almost 12,000 operational waiver applications and has issued 
approvals for over 1,800 waivers, significantly reducing the processing 
time from almost 90 days to approximately 20 days.
    While most of these approved waivers (more than 90 percent) have 
been for night flying, others have been granted for more complex 
activities, such as for flying over people or beyond line-of-sight. The 
commercial activities that typically receive waivers for UAS operations 
are for filmmaking, photography, and infrastructure inspections.
    The newly launched UAS Integration Pilot Program (IPP) sets the 
stage to move even closer to expanded operations through enhanced 
partnerships among industry and State, local and tribal authorities. On 
May 9, 2018, the Secretary of Transportation announced that 10 State, 
local, and tribal governments were selected to participate in the IPP. 
Each of the participants is partnering with private sector entities to 
evaluate operational concepts and provide DOT and FAA with actionable 
information that will accelerate safe and secure UAS integration. The 
goals of the program are to: identify ways to balance local and 
national interests; improve communications with local, State, and 
tribal jurisdictions; address security and privacy risks; accelerate 
the approval of operations that currently require special 
authorizations; and collect data to support the development of 
regulatory actions necessary to allow more complex, routine low-
altitude operations. A list of the participants and each of their 
proposed operational concepts may be found at: https://www.faa.gov/uas/
programs_partnerships/uas_integration_pilot_program/awardees/.
                          airspace management
    The FAA's primary mission is to provide the safest, most efficient 
airspace system in the world. We are responsible for providing air 
traffic control and other air navigation services 24 hours a day, 365 
days a year, for 29.4 million square miles of airspace. In addition to 
this critical operational role, the FAA uses its statutory authority to 
carry out this mission by issuing and enforcing regulations and 
standards for the safe operation of aircraft--manned and unmanned--and 
by developing procedures to ensure the safe movement of aircraft 
through the nation's skies.
            Automated Airspace Authorization
    The basic rules for small UAS operations--14 C.F.R. part 107--set 
the global standard for integration and provided small drone operators 
with unprecedented access to the NAS. Part 107 creates airspace rules 
specific to small UAS operations. It allows line-of-sight, daytime 
operations in uncontrolled Class G airspace without the need for 
approval from the FAA. Operations in controlled airspace--Class B, C, 
D, and surface area E--require prior approval from air traffic control.
    Compliance with basic airspace requirements--the ``rules of the 
road''--is essential to maintaining safety and efficiency in the NAS 
and ultimately will make it easier for our national security and law 
enforcement partners to identify a drone that is being operated in an 
unsafe or suspicious manner. To facilitate airspace approvals for small 
UAS operators, last November, we deployed the prototype Low Altitude 
Authorization and Notification Capability (LAANC) at several air 
traffic facilities to evaluate the feasibility of a fully automated 
solution enabled by public/private data sharing. Based on the 
prototype's success, we began the first phase of a nationwide beta test 
of LAANC on April 30, 2018, enabling LAANC services at about 80 
airports. This rollout will continue incrementally to nearly 300 air 
traffic facilities covering approximately 500 airports. We recently 
completed the fifth wave of this nationwide rollout, which now covers 
82 percent of air traffic facilities, and we are on track to complete 
nationwide deployment in September 2018.
    LAANC uses airspace data based on the FAA's UAS facility maps, 
which show the maximum altitudes in one square mile parcels around 
airports where UAS may operate safely under part 107. It gives drone 
operators the ability to request and receive real-time authorization 
from the FAA, allowing them to quickly plan and execute their flights. 
LAANC also makes air traffic controllers aware of the locations where 
planned drone operations will take place, and it can provide 
information on aircraft that have requested access to a defined 
airspace.
            UAS Traffic Management
    LAANC is an important foundational step toward implementing UAS 
Traffic Management (UTM). UTM is a ``traffic management'' ecosystem for 
UAS operations not under FAA air traffic control (ATC), and is separate 
but complementary to the FAA's air traffic management system. UTM 
development will ultimately identify services, roles/responsibilities, 
information architecture, data exchange protocols, software functions, 
infrastructure, and performance requirements for enabling the 
management of low-altitude UAS operations where ATC does not typically 
provide services.
    We view UTM as a suite of capabilities that will incorporate 
components from the FAA, industry, and our government partners to 
create a comprehensive system of low-altitude airspace management for 
UAS. Our plan for future UTM capabilities includes a number of 
components--LAANC, remote identification, and dynamic airspace 
management--that will support the needs of industry, FAA, and our 
security partners. The eventual full deployment of UTM services will 
create an environment in which the entire spectrum of unmanned aircraft 
can be safely realized, including the transportation of people and 
property.
            UAS in Controlled Airspace
    We are also making headway with an Aviation Rulemaking Committee 
(ARC) to address UAS in controlled airspace, which will provide 
recommendations on UAS integration in, and transit to, high altitude 
airspace. The ARC will develop scenarios that will encompass the most 
desired operations, identify gaps in research and development needed to 
successfully integrate larger UAS into controlled airspace, and 
recommend up to five prioritized changes to policies and procedures 
that will spur integration and economic growth. The ARC held its fifth 
meeting in May 2018 and will continue to meet through the expiration of 
the ARC's charter in June 2019.
                  impediments to full uas integration
    The FAA has made significant progress in integrating UAS into the 
NAS and, through our ongoing research activities, we are well-
positioned to continue to build on our accomplishments. We know, 
however, that there is much more work to do. The FAA's commitment to 
the safe, secure, and efficient integration of UAS and the expansion of 
routine UAS operations also requires resolving specific challenges to 
enable this emerging technology to achieve its full potential.
            Statutory Exemption for Model Aircraft
    The most significant challenge the FAA continues to encounter is 
the perception by many recreational UAS operators that they are not 
required to follow the basic rules of UAS operation because they 
erroneously believe they fit under the statutory exemption for model 
aircraft operated under the programming of a community-based 
organization. These unknowing operators present risks to both manned 
and unmanned compliant operators. The current exemption for model 
aircraft--Section 336 of the FAA Modernization and Reform Act of 2012--
makes it difficult for the FAA to develop new regulatory approaches 
that will help expand and facilitate more advanced uses of UAS in the 
NAS. A set of basic requirements for all UAS operators are essential to 
allow both the FAA and our security and law enforcement partners to 
discern between the clueless, the careless, and the criminal--including 
serious threats to national security--and to ensure all operators 
conduct compliant operations or face the consequences of introducing a 
safety or security risk into the NAS.
            Remote Identification
    As Congress has recognized, remote identification of UAS is another 
critical step on the path to full integration of UAS technology. In 
order to support beyond visual line-of-sight operations, UAS operators 
need to know where their aircraft is and where other aircraft are along 
their flight path. Remote identification is also essential to enable 
our law enforcement and national security partners to identify and 
respond to security risks. Effective integration and threat 
discrimination will continue to be a challenge until all aircraft in 
the NAS--manned and unmanned--can be identified. Anonymous operations 
are inconsistent with safe and secure integration.
    Last December, we published the report and recommendations prepared 
by the summer 2017 UAS Identification and Tracking ARC \2\. The ARC's 
74 members represented a diverse array of stakeholders, including the 
aviation community and industry member organizations, law enforcement 
agencies and public safety organizations, manufacturers, researchers, 
and standards developing organizations involved with UAS. The ARC's 
recommendations cover issues related to existing and emerging 
technologies, law enforcement and national security requirements, and 
how to implement remote identification. Although some recommendations 
were not unanimous, the group reached general agreement on most issues. 
The FAA is reviewing the technical data and recommendations in the ARC 
report to support the development of the FAA's remote identification 
requirements. We are currently working on a proposed rule to implement 
these requirements as quickly as possible.
---------------------------------------------------------------------------
    \2\ See https://www.faa.gov/news/updates/
?newsId=89404&omniRss=news_updatesAoc&cid=
101_N_U
---------------------------------------------------------------------------
                               conclusion
    Throughout our history, the FAA has adapted to changes in 
technology and has successfully integrated new operators and equipment 
into the NAS. Our progress in accommodating new technologies and 
operations demonstrates that the agency is well positioned to maintain 
its status as the global leader in UAS integration. We are committed to 
working with Congress and all of our stakeholders to find solutions to 
our common challenges. Working together, we are confident we can 
balance safety and security with innovation. With the support of this 
Committee and the robust engagement of our stakeholders, we will 
continue to safely, securely, and efficiently integrate UAS into the 
NAS and solidify America's role as the global leader in aviation.
    Finally, before I conclude I would like to take a moment to 
acknowledge the support of Chairman Shuster and Subcommittee Chairman 
LoBiondo. You have been instrumental in providing the FAA with the 
direction and necessary resources to maintain our position as a global 
leader in aviation. I thank you both for your leadership and wish you 
well as you retire from Congress.
    This concludes my statement. I will be happy to answer your 
questions at this time.

    Mr. LoBiondo. OK. Thank you, Shelley.
    Jay, do you have an opening statement?
    Mr. Merkle. Thank you, Chairman. I do not. Shelley has our 
only statement for the FAA.
    Mr. LoBiondo. OK. Dr. Prevot, you are up.
    Mr. Prevot. Good morning. Chairman LoBiondo, Ranking Member 
Larsen, Ranking Member DeFazio, and members of the 
subcommittee, it is a privilege to be here before you today to 
discuss Uber's perspective on airspace integration of new 
aircraft. My name is Tom Prevot, and I am excited to lead 
Uber's airspace systems engineering.
    Uber is developing aviation products because we believe 
aerial ride-sharing and drone deliveries have the potential to 
radically improve urban life. As a multimodal transportation 
company, Uber believes solving the problems of congested urban 
environments is core to our mission of making transportation 
safe, reliable, and affordable.
    Just as skyscrapers allowed cities to use limited land more 
efficiently, urban air transportation will use three-
dimensional airspace to alleviate transportation congestion on 
the ground. One of the primary challenges in enabling urban air 
transportation is airspace integration and air traffic 
management. In order to operate at affordable prices and serve 
customers well, we intend to fly thousands of aircraft in each 
metropolitan area that we serve.
    The traditional human-centered air traffic system, however, 
is not designed to manage air traffic at this scale. Therefore, 
we applaud NASA and the FAA for developing the novel concepts 
and technologies for unmanned aircraft systems traffic 
management, commonly abbreviated as UTM. We encourage NASA and 
the FAA to place the highest priority on extending these 
concepts towards other forms of urban air mobility, including 
small passenger carrying aircraft such as electric vertical 
takeoff and landing vehicles.
    These concepts are paving the way for Uber and other 
companies to drive innovation and develop airspace services 
that manage the vehicles on our network safely and efficiently 
without putting an undue burden on existing air traffic 
operations.
    Our vision is to operate aircraft along precise virtual 
route networks that can be dynamically adjusted to the needs of 
air traffic safety and control, noise, and other community 
considerations, as well as air traffic demand. These networks 
will provide high predictability and transparency of our 
operations.
    Our systems will constantly monitor each flight with 
several safety layers handling outlying situations. In 
developing these systems, Uber will take a systematic approach 
to integration and validation in simulations and field testing 
to ensure interoperability and safety.
    Uber has signed two Space Act Agreements with NASA, one for 
the development of UTM concepts and technologies, and another 
to explore urban air mobility, or UAM. Under the agreement 
focused on UTM, we are actively collaborating with NASA and a 
number of other companies to develop and test the information 
exchange protocols between the FAA systems and the industry-
based UAS service supplier systems.
    Under our UAM agreement with NASA, we are focused on 
assessing the impact of new urban air entrants on traditional 
air traffic operations with the goal of developing procedures 
and technologies that allow urban air traffic to integrate and 
scale into the existing operations. To kick-start this area of 
collaboration, a simulation study will be conducted at NASA and 
its research center in the Silicon Valley in just 2 weeks.
    Uber is participating in the UAS integration pilot program 
administered by the Department of Transportation and the FAA. 
We are proud to be a part of the team led by the city of San 
Diego that was recently selected to conduct flight tests as 
part of the pilot program.
    We work with many partners in the industry on overcoming 
the technological barriers to conducting safe and acceptable 
drone deliveries and are pleased with the exceptional 
collaboration between industry and the FAA to work through the 
regulatory barriers associated with operating multiple unmanned 
vehicles safely over people and beyond the line of sight.
    Beyond the UAS IPP, Uber is excited about the work the FAA 
is conducting through its Low Altitude Authorization and 
Notification Capability initiative, more commonly referred to 
as LAANC. Uber believes LAANC sets the groundwork for the 
future of drone traffic management and is supportive of its 
ongoing expansion. We encourage the FAA to extend the approach 
of coordinating airspace access through digital data exchanged 
beyond the static facility maps.
    We commend the Department of Transportation on these 
innovative, future-facing projects, and look forward to working 
with the Department on these and other exciting initiatives, 
including establishing Federal rules on remote identification 
requirements for all drone aircraft.
    Uber is investing in urban air transportation because it 
has the potential to deliver time savings at affordable prices 
to consumers across the world. We see exceptional demand across 
all markets for safe, reliable, fast transportation services, 
and our network can be an excellent supplement to public and 
private transit options.
    The converging forces of improving battery technology, 
massive utilization, and the outset of reliable autonomous 
aviation will transform how people and things move around 
cities across the world. Working with leaders in both the 
public and private sector, we are confident Uber will make a 
sizable impact on this challenge and bring about a lasting 
positive change for the world.
    Thank you for your time, attention, and invitation. I look 
forward to answering your questions.
    [Mr. Prevot's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Thomas Prevot, Director of Engineering, Airspace 
                    Systems, Uber Technologies, Inc.
    Chairman LoBiondo, Ranking Member Larsen, and Members of the 
Subcommittee, it is a privilege to be here before you today to discuss 
Uber's perspective on the future of air traffic and airspace 
integration of new aircraft.
    My name is Thomas Prevot, and I am excited to lead Uber's airspace 
systems engineering. Our airspace systems will manage both Uber's 
Elevate initiative, our future uberAIR product that aims to allow 
anyone to push a button and get an urban air flight, as well as our 
drone delivery initiative for Uber Eats.
    Uber is developing aviation products because we believe aerial 
ridesharing and drone deliveries have the potential to radically 
improve urban life. Every year, millions of hours are wasted in traffic 
on roads globally. In early 2018, INRIX, a Kirkland, Wash.-based 
traffic technology and data firm, ranked Seattle ninth among cities in 
the United States for time spent stuck in traffic at 55 hours per year 
due to congestion. And the Los Angeles Times reports L.A., one of our 
Elevate pilot markets, is the most congested city in the world. For 
residents of those cities and for the rest of us, moments stuck on the 
road represent less time with family, fewer hours growing our 
economies, and more congestion polluting our world.
    As a multi-modal transportation company, Uber believes solving 
these problems is core to our mission of making transportation safe, 
reliable, and affordable to everyone, everywhere. Just as skyscrapers 
allowed cities to use limited land more efficiently, urban air 
transportation will use three-dimensional airspace to alleviate 
transportation congestion on the ground. We started this journey 2 
years ago, publishing our Elevate White Paper to answer the questions: 
why don't people fly in cities today, and what barriers must be 
overcome to make such a service possible at scale?
    And from our extensive research, we have found that one of the 
primary challenges in enabling urban air transportation is airspace 
integration and air traffic management. In order to operate at 
affordable prices and serve all our potential customers well, we intend 
to fly thousands of aircraft in each metropolitan area that we serve. 
The traditional safe, human-centered air traffic system, however, is 
not designed to manage air traffic at this scale. Therefore, we applaud 
the National Aeronautics and Space Administration (NASA) and the 
Federal Aviation Administration (FAA) for developing the novel concepts 
and technologies for Unmanned Aircraft Systems Traffic Management, 
commonly abbreviated as UTM.
    We further encourage NASA and the FAA to place the highest priority 
on extending these concepts toward other forms of urban air mobility 
including small passenger carrying aircraft such as our electric 
Vertical Take-off and Landing (VTOL) vehicles.
    UTM is paving the way for Uber and other companies to drive 
innovation and develop airspace services that manage the vehicles on 
our network safely and efficiently without putting an undue burden on 
existing air traffic operations or air traffic controllers. Our vision 
is to operate our aircraft along precise virtual route networks that 
can be dynamically adjusted to the needs of air traffic safety and 
control, noise and other community considerations as well as air 
traffic demand. These networks will provide high predictability and 
transparency of our operations. Our network systems will also 
constantly monitor each flight with several safety layers handling 
outlying situations. In developing these systems, we will take a highly 
systematic approach to integration and validation in simulations and 
field testing to ensure interoperability with the FAA's air traffic 
systems as well as other UAS service suppliers.
    We have signed two Space Act Agreements with NASA, one for the 
development of UTM concepts and technologies, and another to explore 
Urban Air Mobility or UAM. Under the agreement focused on UTM, we are 
actively collaborating with NASA and a number of other companies to 
develop and test the information exchange protocols between the FAA's 
systems and the industry-based UAS service supplier systems. These 
tests are coordinated by NASA as part of the UTM Technical Capability 
Level 4 preparations, and utilize simulations to bring the stakeholders 
together in achieving interoperability before testing these 
capabilities in the field under the UTM pilot program.
    Under our UAM agreement with NASA, we are focused on assessing the 
impact of new urban air entrants on traditional air traffic operations 
with the goal of developing procedures and technologies that allow 
urban air traffic to integrate and scale into the existing operations. 
To kickstart this area of collaboration, a simulation study will be 
conducted at NASA Ames Research center in the Silicon Valley in just 2 
weeks. We view this simulation, as well as both our partnerships with 
NASA, as critical for devising the path for safely sharing the airspace 
amongst all airspace users.
    Additionally, Uber is participating in the UAS Integration Pilot 
Program (UAS IPP) administered by the Department of Transportation and 
the FAA. We are proud to be a part of the team, led by the city of San 
Diego, that was recently selected as one of ten State, local, and 
tribal governments able to conduct flight tests as part of the pilot 
program.
    We work with many partners in the industry on overcoming the 
technological barriers to conducting safe and acceptable drone 
deliveries and are pleased with the exceptional collaboration between 
industry and the FAA to work through the regulatory barriers associated 
with operating unmanned vehicles safely over people, with beyond the 
line of sight operations, and with fewer than one pilot per vehicle.
    Beyond the UAS IPP, Uber is excited about the work the FAA is 
conducting through its Low Altitude Authorization and Notification 
Capability initiative, more commonly referred to as LAANC. LAANC is an 
automated application and approval process for airspace authorizations 
that uses airspace data, including UAS facility maps, to dramatically 
decrease response times on flight requests from weeks or months to near 
real-time. We believe the initiative sets the groundwork for the future 
of drone traffic management and are supportive of its ongoing expansion 
to 300 air traffic facilities and 500 airports across the country. We 
encourage the FAA to extend the approach of coordinating airspace 
access through digital data exchange beyond the static facility maps.
    We commend the Department of Transportation on these innovative, 
future-facing projects and look forward to working with the department 
on these and other exciting initiatives, including establishing Federal 
rules on remote identification requirements for all drone aircraft.
    At Uber, we are investing in urban air transportation because it 
has the potential to deliver time savings at affordable prices to 
consumers across the world. We see exceptional demand across all large 
markets for safe, reliable, fast transportation services, and our 
network can be an excellent supplement to public and private transit 
options. The converging forces of improving battery technology, massive 
utilization, and the outset of reliable autonomous aviation will 
transform how people and things move around cities across the world. 
Working with leaders in both the public and private sector we are 
confident Uber will make a sizable impact on this challenge and bring 
about a lasting positive change for the world.
    Thank you for your time, attention and invitation. I look forward 
to answering your questions about Uber's vision and approach to air 
traffic and UAS integration.

    Mr. LoBiondo. Thank you, Doctor, for your testimony.
    Mr. Bevirt.
    Mr. Bevirt. Thank you very much, Chairman LoBiondo, Ranking 
Member Larsen, Ranking Member DeFazio, and distinguished 
members of this committee. Thank you for your work in creating 
the safest and most efficient transportation system in the 
world.
    It is a great honor to be here today to tell you about the 
progress towards my childhood dream of a civilization 
unfettered and free to fly. Our small team of dedicated and 
driven visionaries has fused a series of technological 
advancements into an extraordinary and unprecedented aircraft, 
safe and quiet, nimble and fast, accessible and affordable.
    We will operate a fleet of these electric aircraft as air 
taxis flying from building to building. My mission is to 
provide a service so compelling and affordable that everyone 
will fly every day. I believe that unbounded aerial mobility 
will drive gains in productivity, quality of life, and bring 
about renaissance as we turn streets into parks.
    We are rapidly growing our team of engineers and 
technicians and are venture backed by prominent investors. We 
plan to create thousands of high-quality domestic jobs as we 
scale from certification into vehicle manufacturing and service 
operations.
    As a Nation, we spend hundreds of billions of dollars each 
year building and maintaining our roads, and yet congestion is 
more acute than ever before. The limitations of the automobile 
and our ground infrastructure constrain where we can work and 
where we can live. On average, we spend nearly an hour a day in 
the car locked to one-dimensional trajectories.
    Aerial mobility will save us billions of hours per year and 
increase access to high-quality jobs. Managing airspace will be 
one of the key challenges in delivering this safe, efficient, 
and reliable means of air travel to our end customers.
    We will begin our operations within the existing airspace 
framework with a pilot on board who can coordinate and de-
conflict our flights using a traditional radio-based system to 
maintain real-time communication with the FAA flight control 
staff. Our initial flights will be very much like helicopter 
operations today, following established, safe, part 135 
regulations.
    However, as the size of our operations scale, we will need 
to move to an increasingly automated air traffic control system 
that allows for digital de-confliction of airspace in realtime. 
We support the ongoing development of unmanned traffic 
management at NASA and the FAA.
    Given the incredible foresight and hard work over the past 
decade by my colleagues at the FAA and your committee, the 
certification path for vehicles like ours has been dramatically 
improved. Thank you.
    We believe part 23, amendment 64, plus special conditions 
can provide a basis for our vehicle certification. We have been 
working closely with the FAA to establish our means of 
compliance. We encourage Congress to provide the FAA with the 
resources that they need to support their rapidly increasing 
workload as they usher in this new era of mobility.
    Alongside airspace management and vehicle certification, 
the development of landing sites within both urban, suburban, 
and rural airspaces is necessary for the successful deployment 
of this service across our Nation. The provisioning of these 
locations requires careful consideration of updated standards 
relating to landing zone requirements, site, and passenger 
security. It is important that standards for these sites are 
more uniform rather than less so.
    To that end, a patchwork of disparate regionalized 
regulation is not in the public interest. We have already begun 
working with select municipalities to help define standards and 
best practices for takeoff and landing sites and for 
operations. We encourage close coordination and cooperation 
between Federal, State, and local governments, and regulatory 
agencies to synthesize these best practices in formal standards 
that can provide a clear, nationwide path to compliance and 
authorization.
    If I could leave you with one takeaway from today's hearing 
it would be that this technology is very real and it is here 
now. I want to thank the leadership of this committee and its 
members for your time today. We believe this new mode of 
transportation will bring about profound, positive impact on 
our daily lives and on the productivity of our Nation.
    Thank you again, and I look forward to your questions.
    [Mr. Bevirt's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of JoeBen Bevirt, Founder and Chief Executive 
                         Officer, Joby Aviation
                              introduction
    Chairman LoBiondo, Ranking Member Larsen, and distinguished members 
of the Subcommittee, thank you for the opportunity to appear before you 
today on behalf of Joby Aviation to discuss electric air taxis, the 
promise of next-generation air mobility, and how these aircraft can be 
integrated into our nation's airspace.
    For more than 10 years, Joby Aviation has been at the forefront of 
next-generation air vehicles built around economical and sustainable 
fully electric powertrains. In pioneering efforts both with NASA and 
the US Department of Defense, we have helped push the boundaries of the 
possible in flight through the careful application of distributed 
electric motors and large-format lithium-ion batteries to air vehicle 
design. Distributed electric propulsion is the efficient use of a large 
number of smaller electric motors to distribute sources of thrust to 
create redundancy. This increases safety, improves aerodynamic 
efficiency for greater range and speed, and lowers the noise profile of 
air vehicles for greater community acceptance. One example of our early 
work is the X-57 Maxwell--the first all-electric ``X-plane''--developed 
in conjunction with NASA and other private industry partners.
    More recently, Joby Aviation has been 100 percent focused on the 
development of a piloted, five-seat, all-electric, vertical takeoff and 
landing passenger aircraft optimized for the delivery of on-demand air 
travel. Our design goals for the vehicle were threefold: first, 
unparalleled safety through layered redundancy across both the vehicle 
design and design of the subsystems therein; second, an extremely low 
noise profile via an all-electric powertrain and the careful design of 
our propellers; and third, highly efficient operations to maximize 
passenger seat-miles per unit of time and drive to increasingly low 
cost with higher utilization.
    We are a development-stage company venture-backed by prominent 
angel, institutional and strategic investors. Currently we are a team 
of 180 engineers and technicians and expect to continue to grow 
rapidly, creating thousands of jobs in engineering and manufacturing 
over the next 5 years. This job growth is in part fueled by our 
philosophy of vertical integration where we achieve tight integration, 
rapid development, and efficient production by designing and 
manufacturing the majority of our aircraft, systems, and components in 
house.
                         the problem + solution
    The transportation systems in many of our nation's cities are at a 
breaking point. Over the past 20 years, we have seen increasing numbers 
of people moving into and around large metropolitan areas. Existing 
ground infrastructure--whether bridges, roads, tunnels or mass 
transit--is struggling to serve this increasingly concentrated 
population. It is still not easy, cheap nor fast to build new ground 
infrastructure to match increased demand. The result in many cities 
throughout the US is longer commute times, wasted productivity with an 
increasing percentage of people's days in cars, and a lower quality of 
life for many of your constituents.
    We designed our aircraft to help solve this problem.
    Our aircraft will have a professional pilot onboard and will 
transport four passengers to their destinations more than five times 
faster than existing ground transportation at greater safety and, in 
time, at equivalent cost without the need for extensive, new, fixed 
ground infrastructure. Our vehicles can take off and land from almost 
anywhere--including rooftops, parking structures and existing 
heliports. They are more than one hundred times quieter than current 
helicopters, meaning they can get people closer to their final 
destinations without disturbing surrounding communities. They are 
significantly more cost-effective, due to lower energy costs and 
simplified maintenance. At increasing utilization, we can drive to a 
cost per passenger-mile that is on par with the costs of ground 
transportation today. We aim to make this a mode of transportation that 
is affordable and accessible to everyone.
    When deployed as an on-demand fleet with high-volume and high-
frequency operations, we believe these vehicles can have a significant 
positive impact on lowering commute times, increasing productivity and 
quality of life, and reducing carbon emissions in and around prominent 
cities such as Los Angeles, Dallas, Philadelphia and Washington, D.C.
    However, we also believe that the transportation problem we can 
address is not limited to cities. Today's hearing is on ``Urban Air 
Mobility'', but we believe the problem and our solution is not just for 
large metropolitan areas. We aim to deliver fast, efficient and cost-
effective air travel to suburban and rural communities too.
    Traditional car-based ride-sharing networks like Uber or Lyft that 
rely on ground vehicles require significant population density to work. 
Their low prices are predicated on a high volume of passengers in a 
small area and a high number of drivers in a geography to service them. 
Only with those two ingredients can they drive value--whether that's 
low prices or prompt service.
    That is not the case for aircraft like ours. Because our aircraft 
can travel point-to-point at high speeds, we can deliver highly 
utilized cost-effective service for more sparsely populated rural and 
suburban communities as well.
    Many companies here are rightly focused on large metropolitan areas 
where existing transportation networks are overwhelmed. However, rural 
and suburban communities often face a different problem--namely, 
limited or non-existent transportation infrastructure. Our vehicles and 
our service can help people in these places as well: expanding economic 
opportunity by opening up new job markets, increasing quality of life 
with better access to health and human services, and strengthening 
personal relationships with far-flung friends, family and colleagues.
                       challenges + opportunities
    If I could leave you with one takeaway from today's hearing, it 
would be that this technology is very real, very possible, and it is 
here now. We are optimistic about the promise of Joby Aviation in part 
because our FAA partners--who have for 60 years managed the safest 
transportation system in the world--are progressive and forward-
thinking about the future of air travel. They share and continue to 
support our mission and timeline. Congress has and should continue to 
support these efforts by ensuring that the FAA has the resources it 
needs to support the development and integration of this technology.
    America is a recognized leader in aerospace technology--a sector 
that delivers $143 billion in export sales and supports more than 
700,000 high-paying jobs across the country. It is imperative that the 
US maintains its position as a leader in the development of the next-
generation of air vehicles.
    There are three areas that are worth discussing in greater detail 
here: airspace, regulation and infrastructure.
                                airspace
    Managing airspace will be one of the key challenges for us and 
others in delivering safe, efficient and reliable air-transportation-
as-a-service to end consumers. Unlike other companies, we made an early 
decision to design our vehicle and begin our operations wholly within 
the existing airspace management framework. We will have a pilot 
onboard from day one who can coordinate and deconflict our flights 
using the traditional, radio-based system to maintain real-time 
communication with FAA flight control staff. Our initial operations 
will be very much like helicopter operations today--coordinated along 
current flight paths and following established and provably safe 
methods of operation.
    However, as the size of our operations scale--whether the volume of 
vehicles in continuous operation in and around a given geography or the 
frequency of those operations--we will need to move to an increasingly 
automated air traffic control system that allows for the digital 
deconfliction of airspace in real-time with limited input from either 
our pilots in the air or FAA staff on the ground. Some of this work has 
already begun with the ongoing development of the Unmanned Aircraft 
System Traffic Management (UTM) system led by NASA and the FAA.
    We support the ongoing work to develop and implement a UTM system 
for drones operating in uncontrolled airspace at low altitudes and 
appreciate Congress's continued support for these efforts. We also 
believe that UTM should be scalable for operations of larger passenger-
carrying vehicles at higher altitudes. Today, airspace integration 
efforts should focus on the communication between users who transition 
from a UTM to ATC--uncontrolled to controlled airspace--and vice versa. 
We support NASA's work on both UTM and urban air mobility and ask the 
Committee to encourage the FAA to make this NASA-FAA partnership a 
priority.
                               regulation
    The path to certify for vehicles like ours has already been 
dramatically improved by the FAA's adoption of Amendment 64 of the Part 
23 Airworthiness Standards. We believe Part 23 plus special conditions 
can provide a reasonable basis for our vehicle certification. With 
Amendment 64, many of the overly prescriptive means of compliance were 
migrated toward consensus-based industry standards that preserve the 
safety objectives embedded within the Part 23 requirements while also 
allowing for novel means-of-compliance to meet these goals. We firmly 
believe that this approach allows for a more adaptive framework to 
define and accept new means-of-compliance associated with novel 
underlying technologies and vehicle configurations.
    At Joby, we have already been working closely with FAA for more 
than 18 months to help adapt these new Part 23 and related guidelines 
to the certification of our aircraft. We encourage Congress to continue 
to support this important work. As in many areas of governance that 
have come before your committee--like the development of autonomous 
ground vehicles--we believe the most expedient way to safely introduce 
new technology is through private and public partnership around clear, 
shared goals.
                             infrastructure
    Alongside the airspace management and vehicle certification, 
landing sites within urban, suburban, and rural airspaces are a 
necessary component of the successful delivery of this service. The 
provisioning of these locations requires careful consideration of 
updated standards related to landing zone requirements as well as site 
security and passenger security. Different locations will have some 
unique needs due the local zoning, population density and physical 
geography.
    Despite the differences in geographies, however, it is important 
that standards for these sites are more uniform rather than less so--
both within the US and, ideally, internationally. To that end, it is 
important that Federal preemption for the FAA in the area of aviation 
is respected both legislatively and judicially. A patchwork of 
disparate, regionalized regulation is not in the public interest.
    We have already begun working with select municipalities to help 
define standards and best practices for takeoff and landing sites and 
for operations. We encourage close coordination and cooperation between 
the Federal, State, and Local governments and regulatory agencies to 
synthesize these best practices in formal standards that can provide a 
clear, nationwide path to compliance and authorization.
    Furthermore, the FAA, EASA, and other regulators should work 
together to develop globally coordinated safety system expectations 
through agreed upon consensus standards that ensure the viability of 
reciprocal airworthiness acceptance. The relatively recent General 
Aviation Manufacturers Association Electric Propulsion Innovation 
Committee (GAMA EPIC) has brought both American and European voices 
into the conversation together. We encourage both agencies to continue 
to seek opportunities for collaboration and joint rulemaking.
                                closing
    Joby Aviation is committed to delivering on a new mode of on-demand 
air transportation that offers unprecedented freedom to get from one 
place to another for your constituencies--whether in cities, suburbs, 
or rural areas.
    We are on the cusp of an exciting development for consumers, 
travelers, technology and America's global leadership in aviation. It's 
not hyperbole to suggest that the introduction of our aircraft and 
other electric vertical takeoff and landing (eVTOL) aircraft like it 
have the opportunity to transform the way people travel, where they 
live, and how they spend their time. It's a transportation revolution 
on par with the introduction of the railroad, the car, and jet travel. 
Just as each of these transportation modes had incredible, positive 
impacts on economic opportunity and quality of life, so too can on-
demand air-travel with eVTOL usher in a new set of gains.
    I thank this committee for this timely hearing and want to 
emphasize that the next generation of transportation and technology at 
Joby Aviation is closer than you might think. With Congress' support, 
we can begin to improve mobility, safety, and quality of life in the 
very near future. I look forward to your questions.

    Mr. LoBiondo. Thank you very much.
    Ms. Scott, you are recognized.
    Ms. Scott. Chairman LoBiondo, Ranking Member Larsen, 
Ranking Member DeFazio, members of the subcommittee, thank you 
for the opportunity to participate in this hearing on airspace 
integration.
    At Skyward, we provide software, aviation expertise, and 
consulting services to help companies use drones safely, 
efficiently, and legally. I have spent my career bringing new 
technology to market in highly regulated environments, not only 
in drones, but also in healthcare and secure online 
transactions. I understand the tremendous opportunity and 
responsibility that comes with the integration of UAS in the 
national airspace.
    In order to maximize the value that drones can provide we 
need three things: one, continued public-private partnership as 
we work towards universal traffic management; two, regulatory 
innovation from the FAA and adequate enforcement of laws; and, 
three, freedom to compete for the best solutions in the market. 
There are already a number of effective public-private 
partnerships encouraging innovation and reducing barriers for 
business, including the UAS integration pilot program and 
LAANC.
    Last winter, our customer, PBS Engineering, received a 
contract with Portland Public Schools to perform roof 
inspections for which drones are, hands down, the best tool. 
However, many Portland schools are in controlled airspace, so 
they were forced to delay and evaluate other methods.
    This spring, LAANC went live in the Northwest, and PBS 
Engineering was able to quickly get the authorization they 
needed for drone use, saving public funds and minimizing safety 
risks for employees. Our customers love LAANC because they can 
fly more jobs. We love LAANC because it is the first step 
towards a universal traffic management system that will allow 
manned aircraft drones and eventually flying cars to safely 
share the airspace.
    Historically, UTM has stood for UAS traffic management, but 
universal traffic management includes every vehicle that 
operates in the airspace. This is a decentralized network, like 
a wireless network or the internet, for coordinating all types 
of aircraft efficiently, safely, and scalably.
    UTM will require public-private partnerships among aircraft 
manufacturers, sensor engineers, software developers, network 
providers, and regulators to implement standards and manage an 
interoperable worldwide ecosystem.
    Google's new InterUSS project, in which we are a founding 
member, is an open-source decentralized platform to put 
standards into action. The platform will enable any UAS service 
supplier, like Skyward, to share standardized minimal sets of 
data that protect operator and customer privacy, but provide 
flight de-confliction and safe access.
    We have the technical know-how, but we have work to do on 
the regulatory front. For competition to flourish, current 
Federal regulations must be enforced and new regulations must 
support industry growth. This is an opportunity for leadership 
to enable commerce and safety. We are encouraged by the latest 
version of the FAA Reauthorization Act, especially fewer 
restrictions for R&D and transporting payloads beyond line of 
sight.
    We agree that enforcement authority should be given to the 
FAA, which has the expertise to regulate both commercial and 
recreational vehicles in the airspace. Moving forward, we would 
like to see the FAA continue to collaborate with industry on 
standards, especially remote identification of all aircraft, 
which we believe will directly enhance safety and spur economic 
growth. Remote IDs are essential for both hobbyists and 
commercial aircraft and are a critical foundational element for 
a universal traffic management network.
    We continue R&D on networked fleet deployments and UTM. We 
believe that operating drones on Verizon's LTE network will be 
important to safely and securely deliver functionality like 
remote ID, airspace access, flying beyond line of sight, and 
remote air fleet deployments.
    Verizon is investing billions of dollars in 5G 
infrastructure, which will enable secure aviation grade 
routing. 5G's latency and reliability, combined with the high 
density of micro cell sites, make it a good candidate to 
support autonomous air taxis. And virtual network slicing in 5G 
protects pieces of the network for safety critical 
applications, such as search and rescue.
    The technical and regulatory project of integrating the 
airspace is enormous, yet small steps are already having a 
tremendous impact. Now we need to make bigger strides.
    I appreciate the opportunity to appear before the 
subcommittee, and thank you for the support you have shown to 
the aviation industry as a whole.
    [Ms. Scott's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Mariah Scott, President, Skyward, a Verizon 
                                Company
    Chairman LoBiondo, Ranking Member Larsen, and members of the 
subcommittee, thank you for the opportunity to participate in this 
hearing on airspace integration. My name is Mariah Scott and I am 
president of Skyward, a Verizon company. Our aviation expertise, 
consulting services, and aviation mapping and UAS fleet management 
software help companies use drones safely, efficiently, and legally. 
Drones present an enormous opportunity for innovation and our economy, 
but the potential can only be safely realized if Congress and the 
Federal Aviation Administration lean in with industry.
    I've spent my career guiding new technology to market in highly 
regulated environments, not only in drones but also in healthcare and 
secure online transactions. Nowhere have we had the opportunity to 
shape the future--and to get it right the first time--as we do today 
with the integration of the national airspace. The drone industry has 
come a long way in the past 5 years, but we have only begun to scratch 
the surface in terms of the value that drones can provide. In order for 
businesses to realize that potential, we need three things:
    1.  Continued public-private partnership as we work toward 
Universal Traffic Management;
    2.  Regulatory innovation from the FAA and adequate enforcement of 
laws; and
    3.  Freedom to compete for the best solutions in the market.
      public-private partnerships for universal traffic management
    Historically, UTM has stood for UAS Traffic Management. But we 
believe that a more inclusive concept--Universal Traffic Management--
will better enable airspace to be shared safely among all types of 
aircraft. We see UTM as a system of systems, a decentralized network 
like a wireless network or the Internet, for coordinating all types of 
aircraft. We believe this will be the most efficient, cost effective, 
scalable, and safest method for managing the national airspace. This 
will require aircraft manufacturers, sensor engineers, software 
developers, network providers, and regulators to agree upon standards 
to create and regulate an interoperable worldwide ecosystem.
    This sounds ambitious but there are already a number of effective 
public-private partnerships that are encouraging innovation and 
reducing barriers for businesses on a smaller scale. One example is the 
U.S. Department of Transportation and FAA's UAS Integration Pilot 
Program, which is enabling State, local, and tribal governments to 
partner with the private sector to develop new systems and use cases. 
In another example, the New Jersey Cape May County Airport, in Chairman 
LoBiondo's district, received $3 million for a 20,000-square-foot 
building to serve as a center for drone businesses to conduct UAS 
testing and development. As a result of Cape May's innovative drone 
programs, in April 2018, Verizon chose the county to test a 200-pound 
drone that serves as a 4G portable hotspot in cooperation with local 
emergency responders. Verizon plans to use drones like these as a way 
to provide cellular connectivity when natural disasters damage existing 
cellular infrastructure.
    Perhaps the most compelling example for this venue, last fall, the 
FAA partnered with 12 companies, including Skyward, on its Low Altitude 
Authorization and Notification Capability (LAANC). Previously, the FAA 
required companies to apply for authorization to fly in controlled 
airspace--which blankets vast swaths of the U.S. population--a process 
that took up to 90 days. Now, companies can use Skyward's software to 
request flights in specific volumes of controlled airspace and receive 
approval in seconds. This partnership--still in its early stages-- is 
already an enormous success. Last winter, our customer PBS Engineering 
received a contract with Portland Oregon Public Schools to perform roof 
inspections and create district-wide roof access plans, a project for 
which drones are the safest, fastest, and most cost-effective tool. But 
because many of the schools lie within controlled airspace, the firm 
was forced to evaluate other methods. This spring, when LAANC went live 
in the Northwest, PBS Engineering was able to obtain authorization to 
use drones to inspect and map school roofs, saving public funds and 
minimizing employee exposure to hazards and fall risks.
    The success of LAANC is the direct result of the FAA partnering 
with industry to create safe, sensible regulatory processes that have 
been automated and delivered by software providers like Skyward. This 
is just the beginning. For all its popularity, LAANC is a point 
solution that mitigates a specific logistical burden. A system of 
Universal Traffic Management that enables safe sharing of the airspace, 
from commercial airliners to small drones as well as the ``flying 
cars'' of the near future, is what the industry needs to truly 
flourish.
    In practice, the future of Universal Traffic Management means that 
protocols will be baked into every aircraft, ground control station, 
and piece of software to ensure safety and reduce human error. Any 
drone will be able to work on any aviation-grade communications 
network, such as Verizon's LTE network, through any number of 
applications, following standard protocols. An operator will be able to 
deploy multiple drones at once, autonomously and from a remote 
location. Any aircraft will be able to safely navigate among dozens or 
hundreds of other aircraft of all sizes that are all going about their 
business. By sharing minimal amounts of essential, standardized 
information, we can achieve a global Universal Traffic Management 
system that will safeguard the integrity of the airspace and allow for 
seamless, equitable sharing of airplanes, helicopters, drones, and 
other airborne vehicles.
                 regulatory innovation and enforcement
    In the past 2 years, the FAA has been both forward-thinking and 
realistic with its approach to commercial drone use, as shown by its 
implementation of Part 107 of the Federal Airspace Regulations, the 
Part 107 waiver process, and LAANC. Similarly, we are encouraged by 
congressional efforts around the pending FAA Reauthorization Act and 
are especially excited about provisions that would reduce barriers for 
drone R&D as well as those that will permit transportation of payloads 
beyond visual line of sight. But more needs to be done to enforce 
current laws, especially among recreational drone users. A small number 
of bad actors within the recreational pilot community have threatened 
the safety of the airspace and damaged the reputation of all drone 
users by operating with disregard for regulations and basic common 
sense. This can't continue, and we appreciate that the Reauthorization 
Bill offers potential solutions. We agree that enforcement authority 
should be given to the FAA, which has the expertise to regulate and 
enforce activities in the airspace, whether commercial or recreational. 
Whether I drive a car down the highway for business or fun, I am still 
obligated to follow the rules of the road. The same should be true for 
any vehicle operating in the airspace.
    In order to maintain its leadership in the worldwide drone 
industry, the FAA must also promulgate a remote identification rule 
that applies to all vehicles in the air. Remote identification will 
directly enhance safety and spur economic growth. But without 
legislation requiring remote identification, Universal Traffic 
Management will never become a reality, the potential for drones won't 
be maximized, and commerce will be restricted, slowing an important 
source of economic growth for the country.
    Moving forward, we would like to see additional funding for the FAA 
that would allow it to continue to develop sensible regulations and a 
more efficient waiver process, as well as specific direction to 
collaborate with industry and implement standards toward this Universal 
Traffic Management system. Congress should also give the FAA the tools 
to better enforce the regulations and laws that we currently have as 
well as allow it to adapt with industry to meet the safety and security 
requirements of future airspace integration. It is imperative that the 
industry be safe, and without penalty and enforcement of the rules, we 
are likely to see more careless, clueless, and criminal pilots endanger 
the national airspace.
                     encouraging market competition
    There are so many different aviation vehicles, customers, 
regulators, and service providers that a centralized UTM system or 
single UTM provider wouldn't be able to manage all aspects of aviation 
traffic, which is why we continue to seek out partnerships with 
government and other businesses. Skyward's head of innovation, Jonathan 
Evans, serves as president of the Global UTM Association, an 
international body of industry leaders, including GE, Sony, and 
Alphabet's Project Wing, working to develop consistent standards for 
remote identification, deconfliction, and communication that will allow 
aircraft, software, and regulators all over the world to understand 
what an aircraft is, where it's flying, and the responsible party. 
Google's new InterUSS Project, in which we are a founding member, is an 
open-source, decentralized solution putting those standards into 
action. The platform will enable any UAS service supplier (USS), 
including Skyward, to share standardized, minimal sets of data in a 
consistent way that protects operator and consumer privacy (no 
operational data is stored on the platform). Multiple open-source data 
nodes can be hosted by any USS, resulting in a scalable, distributed, 
auditable, and flexible way to share airspace and deconflict flights. 
Flight information is acquired at the time of need, sharing just the 
right amount of information to safely deconflict and inform the other 
network nodes.
    In the meantime, we continue R&D on the future of networked fleet 
deployments and Universal Traffic Management. We believe that operating 
drones on Verizon's LTE Network will be critical for creating a 
distributed Universal Traffic Management network--for remote 
identification, flying beyond line of sight, and remote networked fleet 
deployments. Looking toward the near future, Verizon is investing 
billions of dollars in 5G infrastructure, which will enable secure 
aviation-grade routing and beyond line of sight flights. 5G's latency 
and reliability, combined with the high density of micro cell sites, 
make it good candidate to support autonomous air taxis. And virtual 
network slicing in 5G protects pieces of the network for safety-
critical applications such as search and rescue.
    Each of these investments could be jeopardized if the FAA decides 
to purchase or prioritize one system over another. Rather than stifling 
innovation by declaring one UTM provider a ``winner,'' the FAA should 
let the providers deliver those services that best meet the needs of 
the end users. After all, a networked deployment for urban package 
delivery in New Jersey has different requirements than a search and 
rescue operation in rural Oregon.
                               conclusion
    The technical and regulatory project of integrating the airspace is 
enormous, and small steps are already having a tremendous impact--but 
now we need to make bigger strides. It would be nearly impossible for a 
single developer to create a ``perfect'' end system up front, which is 
why industry-government partnerships and open-source development are so 
important. LAANC represents a successful technological-regulatory first 
step toward airspace integration, but in the near future we'll need 
highly sophisticated, dynamic, and secure technical networks to ensure 
safety and competition.
    I appreciate the opportunity to appear before this Subcommittee and 
thank you for the support that you have shown to the aviation industry 
as a whole.

    Mr. LoBiondo. Thank you very much.
    We will now start with questions from Mr. Larsen.
    Rick, you are up.
    Mr. Larsen. Thanks.
    For Ms. Yak, do you have any updates on results that might 
be informative or helpful to the FAA or the industry with 
regards to the drone integration pilot program?
    Ms. Yak. Yes. That is the program I mentioned in my opening 
remarks. That is a program that we put in place that allows us 
to collaborate with State, local, and Tribal governments.
    Mr. Larsen. Right.
    Ms. Yak. And the purpose is to advance UAS technology. So 
they have been very successful in testing and evaluating UAS in 
different use models. In fact, I mentioned the four that just 
successfully flew this month.
    FAA's role in this program is that we are a facilitator 
with these programs, and one of the benefits we receive from 
the tech center's perspective is the receipt of data. So that 
data allows us to do more modeling, simulation, and 
understanding.
    But to really get to the point of your question, they have 
been working in the areas of detect and avoid, command and 
control, navigation, weather. And examples of their use that 
they have been approved for is beyond visual line of sight; 
package delivery; which we had a successful flight this month, 
I believe it was, for a long-range flight of package delivery, 
I think it was medical supplies; inspection of infrastructure; 
as well as patrol and surveillance.
    Mr. Larsen. Yeah, OK.
    And then for--is it--I am sorry. We met yesterday, but is 
it pronounced Preevoe or Previt?
    Mr. Prevot. Preevoe.
    Mr. Larsen. And is it pronounced Beevurt or Bevurt?
    Mr. Bevirt. Bevurt.
    Mr. Larsen. OK. It is Larsen, so it is all clear.
    Dr. Prevot and Mr. Bevirt, given what you heard about the 
progress on IPP, are you able to utilize that information? Is 
that information helpful to you as you are thinking ahead about 
conceptually? Let's start here.
    Mr. Prevot. Yeah. So Uber is actively participating in the 
IPP with our drone delivery efforts for Uber Eats, and we 
anticipate that we can carry the learnings that we get from the 
IPP also into our area ride-sharing initiative as well. So we 
think it is extremely helpful.
    We are very pleased with the support that we are getting 
from the FAA and the collaboration that we are getting in the 
IPP so far. So, yes, I would say that is an extremely useful 
initiative.
    Mr. Larsen. Yeah. Mr. Bevirt.
    Mr. Bevirt. We agree that it is a very useful initiative, 
and we look forward to carrying the learnings into our work on 
aerial mobility. Thank you.
    Mr. Larsen. Great.
    So also for both of you, and actually for Ms. Scott as 
well, has the newly written part 23 regulations for GA [general 
aviation] aircraft, has that been helpful to you, and how are 
you using it, if you are using it at all?
    Mr. Bevirt. Yes, absolutely. The part 23, amendment 64 has 
been transformative in our ability to move forward expediently 
with the FAA. The FAA has been incredibly supportive, and they 
are really leaning in and very proactive and forward thinking 
on embracing these new modes of technology, which will really 
fundamentally revolutionize how we move as a society.
    Mr. Larsen. Yeah.
    Mr. Prevot. Yeah, the same. We are working with 
manufacturers who build aircraft for us, five 
manufacturers:Embraer, Bell, Pipistrel, Aurora Flight Sciences, 
and Karem, and we expect all five of them certainly to benefit 
from the part 23 regulations.
    Mr. Larsen. Yeah. Yeah.
    Ms. Scott.
    Ms. Scott. We haven't been involved with part 23.
    Mr. Larsen. OK. All right. Thanks.
    And maybe for--this is a somewhat sarcastic question, but 
it gets to a point. So if you are going to have thousands of 
these air taxis flying around, will you take the complaint--the 
noise complaint calls so I don't have to?
    OK. In other words, how are you going to address--it is not 
just numbers. It is, you know, noise. It could be, potentially. 
So how are you addressing--thinking about that?
    Mr. Bevirt. Yeah. So second to safety, noise is our very 
high priority, and we have considered it both in the overall 
vehicle architecture and also the design of every one of the 
subcomponents on the aircraft. And we are incredibly pleased 
with the progress. Our aircraft is now more than 100 times 
quieter than a helicopter. It is really, really spectacular. 
When it is flying over, you can barely hear it. It is----
    Mr. Larsen. At what altitude?
    Mr. Bevirt. At 1,000 feet.
    Mr. Larsen. 1,000 feet, OK.
    Mr. Bevirt. In a city you can't hear it at all. It is only 
if you are in the countryside. I care very passionately about 
noise. I grew up out in the mountains where it was just 
absolutely pristine quiet, and I love the quiet. And so as an 
engineer developing these tools, this was my childhood dream to 
build VTOL aircraft.
    And when I started working on this more than 25 years ago, 
I realized that VTOL aircraft were incredibly noisy when they 
were powered by combustion engines. And so I wanted to build an 
electric VTOL, but battery-specific energy wasn't what it 
needed to be, and I needed to wait for the batteries to get to 
the point where we could build a really quiet vertical takeoff 
landing aircraft that allows us to really transform 
transportation as we know it.
    Mr. Larsen. Yeah. I am sorry I am out of time, but other 
Members will have similar questions, I am sure. Thank you.
    Mr. Bevirt. Thank you very much.
    Mr. Larsen. Thanks.
    Mr. LoBiondo. OK. Thank you, Rick.
    Sam? No.
    Bob?
    Mr. Gibbs. Thank you, Chairman.
    I think when I was 5 years old, my favorite TV show was 
``The Jetsons.'' I don't know if this is what is going to 
happen or not.
    Ms. Yak, in your testimony, you discuss a roadmap for full 
unmanned aircraft integration into the National Airspace 
System, including operation beyond the visual line of sight for 
the operator. Can you provide us an update on the progress of 
the integration in that?
    Ms. Yak. From a research perspective, because that is 
pretty much what we do, the UAS integration path for research 
is pretty much a step path, but it is not linear. We can do 
that in parallel. So you are absolutely right. We are looking 
at research for operations over people, beyond visual line of 
sight, package delivery. And then that brings us to the next 
stage which is on expanded operations, large cargo delivery of 
packages, and then ultimately to passenger transportation.
    So that is our guideline, and we are doing a lot of 
research in different areas. For instance, research that we are 
doing that is going to enable UAS integration as well as 
support urban air mobility is research in the command-and-
control area.
    So command and control is the data link between the pilot 
and the aircraft. So we are doing research from that 
perspective of frequency levels, the minimum operational 
performance requirements necessary for that data link to ensure 
the integrity of that link to allow us to integrate these 
aircraft into the system.
    Mr. Gibbs. I guess for anybody on the panel, just to 
further, is technology there where we have collision avoidance 
technology that the equipment, the aircraft itself could take 
action on its own? What is the technology for that, for all 
these things flying around, like ``The Jetsons,'' I guess, you 
know? If anybody in the room can remember ``The Jetsons,'' you 
know what I am talking about.
    Mr. Bevirt. Congressman Gibbs, thank you for your question. 
So as we talked about, initially we will deploy these as 
piloted aircraft, but from day one, they have a sensor suite 
that is embedded on those aircraft that is unprecedented. We 
have cameras, infrared sensors, LiDAR, radar, and so they can 
sense the environment around the aircraft in really an 
unprecedented and exciting way.
    And over time, as we prove to ourselves and to the FAA that 
these technologies will make those aircraft and the operation 
of those aircraft safer than with the pilot, we will begin to 
add in protections similar to what you see in maybe a level 3 
car where it is a safety net around the aircraft, and it will 
help the pilot in the case that maybe there is a small drone 
and you don't see it, but the aircraft can see it and can avoid 
it. So we see incredible technological progress as we move 
forward.
    Mr. Gibbs. What do you see the cost? You know, as this 
moves on, the costs will come down. But what do you think you 
are looking at here when this starts to become more readily 
available?
    Mr. Bevirt. Yeah. So, again, cost and accessibility to 
everyone is the core of our mission. When we first launch this 
service, we are targeting the price of a taxi, and so the price 
for the trip will be on par with the price of a taxi trip. And 
over time, we believe that we can get the cost down below the 
cost of personal car ownership. And at that point, this is 
transformational and everybody will ride it every day.
    Mr. Gibbs. That is pretty exciting. I just was curious on a 
timetable. How far do you think we are looking out? Is this 5, 
10 years, 15 years, or what do you think, that we will really 
see the integration of this?
    Mr. Bevirt. Yeah. So we are--I mean, we are currently 
working through certification, and we have an incredible 
collaboration with the FAA, and that is moving very rapidly. 
And once we have a clear path to finalize the certification, we 
will ramp production and begin to roll out in cities across the 
country.
    Mr. Gibbs. So right now, it is really the Government 
regulations, bureaucracy, whatever you want to say, that is the 
limiting factor, or is it technology, or is it cost, or what?
    Mr. Bevirt. It is really about my company doing the 
rigorous work, my team doing the rigorous work to ensure that 
we have tested every single component and every corner case to 
make sure that this is the safest aircraft we can possibly put 
into production. We are fielding in levels of redundancy which 
are really unprecedented in small aircraft to make this 
incredibly safe. Safety is our number one priority.
    Mr. Gibbs. OK. I appreciate it. Thank you.
    I yield back.
    Mr. Bevirt. Thank you.
    Mr. LoBiondo. Peter.
    Mr. DeFazio. Thank you, Mr. Chairman.
    To Ms. Yak or Mr. Merkle, I mentioned section 336 at the 
outset. I mean, we have had an average of 100 monthly reports 
of drones in controlled airspace, and I just talked about the 
suspension--most recent suspension in my district of 
firefighting because of--so remote ID will fix that. But are 
there other issues with drone operations other than remote ID 
that need addressing by the FAA?
    Mr. Merkle. Yes. Thank you for your question, Ranking 
Member DeFazio. Fundamentally we have two barriers. The first 
is the airspace rules need to apply to everyone equally in the 
airspace. And as you mentioned, section 336 does limit the 
FAA's authority in that area. We believe that repeal of section 
336 is vital to being able to consistently apply all the 
airspace rules to all operators in the area. And that in turn 
will allow remote identification, our next step in integration 
of drones or urban air mobility or any of these other exciting 
technologies to be truly fully functional and useful, because 
then every aircraft will be able to see every other aircraft in 
the area which will be fundamental to safety.
    Mr. DeFazio. And, I mean, my amendment does both remote ID, 
and it does say to the extent necessary to ensure safety and 
security of U.S. airspace. I mean, I think we have heard now 
from four agencies that want to be able to shoot down drones on 
their own. Have you been in communication with them at the DHS, 
DoD, DOE, and----
    Mr. Merkle. We have been. The FAA does not want the 
authority to interdict or provide counter-UAS measures. We 
support Department of Defense and Department of Energy having 
those capabilities now. We also support the administration's 
proposal to have the Department of Homeland Security and the 
Department of Justice have that same authority.
    Mr. DeFazio. Uh-huh. But there are also concerns with what 
technologies they might use and how that might affect 
legitimate nearby commercial operations or general aviation 
aircraft?
    Mr. Merkle. Yes. We work closely with our security partners 
to ensure that whenever they are employing counter-UAS 
measures, that they coordinate with us and ensure that we do 
not introduce a hazard into the airspace.
    Mr. DeFazio. OK. Want to be certain of that.
    I have a provision regarding section 336 in the House bill. 
Would that fix the problems as far as the FAA is concerned?
    Mr. Merkle. I am generally familiar with that, and, yes, 
that does give the FAA the authority that we believe we need.
    Mr. DeFazio. OK. Any of the other panelists want to express 
any concerns about the current state of sort of where we are 
totally unregulated for all drones?
    Ms. Scott. Yes. I would just add support for Mr. Merkle's 
position in that we also agree with that position that all 
aircraft need to be regulated and registered and we need the 
remote identification capability. It is a critical foundational 
element for any sort of universal traffic management system for 
providing safe integration and for allowing our commercial 
operators the comfort and feeling that they are following the 
laws and everyone else in the airspace will as well.
    Mr. DeFazio. OK.
    Mr. Bevirt. We also believe that it is important to have 
Federal preemption, and we--although we are putting sensors on 
the aircraft that can help to mitigate unregistered drones, it 
would definitely be preferable if all aircraft flying in the 
NAS were part of the NAS.
    Mr. DeFazio. OK. Doctor.
    Mr. Prevot. I can only second that remote identification to 
me is key for us to being able to de-conflict our flight paths 
from everybody out there. First we need to be able to see them 
to avoid them.
    Mr. DeFazio. OK. Thank you.
    And, again, just have one quick question, Ms. Yak, or Mr. 
Merkle. The FAA has been working on the conflicts, and when I 
asked a couple years ago what happens when you ingest a drone 
into a jet engine, the answer was, well, gee, we really don't 
know. I mean, since then, we have done the airframe testing. 
When are we going to do the engine ingestion test?
    Ms. Yak. Thank you. I will answer that.
    We have partnered with ASSURE, our Center of Excellence, to 
do that work. They have completed phase 1, which was basically 
an analysis of drone versus birds, and we have a lot of data on 
the birds. So the conclusion of that phase 1 was, well, they 
are different than birds, and that from the batteries, the 
cameras, the motor itself, what effect would that have.
    So starting this fall, we are moving into phase 2, and we 
will then be live testing by ingesting those components as well 
as full drones into a fan assembly. We will be gathering data 
from that experience and then we will be putting it into 
modeling and simulation.
    Better yet, we are using simulations from the manufacturers 
on their fan assemblies to be processing that data so that we 
can better analyze and understand the effects those components 
have or full UAS have on fan assemblies and be able to produce 
the results of this research in about a 12-month, 18-month 
timeframe.
    Mr. DeFazio. OK. Thank you.
    Thank you, Mr. Chairman.
    Mr. LoBiondo. OK. Thank you, Peter.
    Bruce, do you have questions?
    Mr. Westerman. Thank you, Mr. Chairman.
    This is kind of a general question. As we have this debate, 
I can't help but think about ``The Jetsons'' and George Jetson 
commuting to work. But how does this physically work? Are there 
lanes in the sky, or how do you manage traffic flow? How do you 
avoid obstacles, birds, drones, all those things that might be 
there? How does this technically work?
    Mr. Prevot. Well, I can start. This is a very good 
question, and I don't think there is a real simple answer to 
this. But we are working with NASA and with the FAA to evaluate 
different concepts. And in one of the concepts that we are 
excited about is what we call Dynamic Skylane Networks, since 
you mentioned lanes. You can think of it as a virtual network 
of lanes, overpasses, on-ramps, and off-ramps, essentially, 
that can be adjusted to where the traffic needs are, to where 
safety and security concerns might be, where noise requirements 
exist, and also where the demand needs to go. So in a sense, 
you can think of it as a three-dimensional road system in the 
sky that you can utilize for your traffic. That is one of the 
concepts that we are pursuing.
    Mr. Westerman. OK.
    Mr. Bevirt. We are also doing extensive work on dynamic 
flocking and simulations for high-density operations in and 
around takeoff and landing locations. We are very optimistic 
about the capacity of the airspace to handle large amounts of 
traffic.
    Mr. Westerman. But it would be some kind of dedicated path 
that you would be on in your flying vehicle?
    Mr. Bevirt. Yes. But with the virtue of being able to be 
dynamically allocated and adjusted. You think, you know, in 
some bridges they will move the center line, depending upon the 
traffic patterns in the morning versus the evening.
    Mr. Westerman. Right.
    Mr. Bevirt. In the sky, the road can go wherever we need it 
to go whenever we need it to go, right. And there are many 
constraints, weather constraints and demand constraints, that 
can allow this to be very flexible, and that is the real virtue 
of this.
    I think there is also a massive opportunity because air 
traffic doesn't require the ground infrastructure and the 
hundreds of billions of dollars we spend maintaining ground 
infrastructure. That is one of the things that makes it such a 
cost-effective mode of transportation, both for the individual 
customers but also for us as a Nation. So we are----
    Mr. Westerman. Do you envision some kind of a master 
control program that each individual has equipment on it so 
that it keeps vehicles out of the path of other vehicles?
    Mr. Bevirt. We believe that it is a network of 
interconnected systems similar to what Ms. Scott spoke about.
    Ms. Scott. I think--we think of this concept of universal 
traffic management as a system of systems or more of a 
distributed network, like the internet or like a wireless 
network, where no one company or entity is controlling the 
internet.
    But we have a set of technical standards that allow for 
interoperability. We have a lot of connectivity options. It 
could be LTE. It could be Wi-Fi. It could be satellite, ADS-B, 
depending on the type of routing that you need. So you have 
connectivity and you have dynamic routing. And then we are 
relying on the regulator to provide the performance-based 
criteria for how we need the aircraft to operate safely and 
integrate with each other. But we are bringing the technical 
standards and that know-how to provide interoperability.
    Mr. Westerman. And just briefly, Ms. Yak, on the part 77 
process, how will the integration of drones and flying cars 
affect the part 77 process, and any idea on how this might 
affect land development?
    Mr. Merkle. I think the integrated pilot program is going 
to be instrumental in helping us understand that because that 
is really a collaboration between your local communities and 
the airspace users. And the IPP is really the point where we 
get to work with companies like Uber and Joby and the local 
communities and determine what is the best balance between 
airspace utilization and issues like privacy, land use, and 
local concerns, such as noise. And we expect the IPP to be very 
informative in those areas.
    Mr. Westerman. I yield back, Mr. Chairman.
    Mr. LoBiondo. Ms. Brownley, questions?
    Ms. Brownley. Thank you, Mr. Chairman.
    Ms. Yak, I wanted to ask you a question. Can you tell us 
about what research the FAA Technical Center is doing to test 
the safety of these new technologies that we are learning about 
today? And can you comment also if there are similarities or if 
there are differences for testing the safety of unmanned versus 
manned aircraft?
    Ms. Yak. Yes, thank you. Very good question.
    Before I start talking, I would like to put the assumptions 
out there, and you have heard a few of them. Urban air 
mobility, vertical takeoff and landing, that is the technology 
that it will be using. It is also going to be using electric or 
battery propulsion. And we are talking about initially being 
manned flight but eventually being autonomous.
    The research FAA does and the reason behind the research 
that we do is to collect the information, the data, and provide 
the scientific analysis to be utilized for future regulations, 
guidelines, or procedures. So that sets the foundation.
    Now, I mentioned in my opening remarks, some of the 
research that we are doing on large aircraft also apply to 
these aircraft, like the materials, lightweight materials, 
composites, propulsion, electric and battery. So the research 
question in support of this technology is, what are the 
performance measurements or requirements for these technologies 
and materials and batteries?
    Another good example is the research that we do from a 
weather perspective. So we do a lot of research around what is 
the weather information pilots need to operate. And we are 
doing a gap analysis for UAS.
    But the research question for somebody is, what is the 
effect of weather in an urban environment? What about wind 
gusts? What effect will that have on this new type of aircraft, 
let alone cold on the longevity of batteries? So these are the 
type of what-ifs.
    Now, in regards to the second part, what are we working on, 
again, it is a lot about the digital interface, the links 
between the pilot and the aircraft, the sensor technology 
between the aircrafts, ground, eventually satellite. That 
allows us to know where the aircrafts are so that we can stay 
well clear and provide that information for the pilot. We are 
focusing in those areas.
    Ms. Brownley. Thank you.
    And to the panel, in terms of what Ms. Yak said about the 
what-ifs, do the what-ifs have impacts on what you are doing 
today in terms of moving forward with your innovations?
    Mr. Bevirt. Yeah, as we have spoken about, safety is really 
our number one priority and ensuring both the safety of the 
individual aircraft and also the operation of the service as a 
whole.
    And the work that the FAA Tech Center has done and the 
collective aviation industry over the past 100 years has 
created the safest transportation system in the world. So not 
only is air travel the fastest and the lowest cost but also the 
safest, our safest mode of transportation. It is really 
stunning.
    And incredibly grateful to the work of this committee and 
the FAA over a long period of time which has steadily improved 
safety. And I think it is incredibly commendable and really 
spectacular, the achievement.
    Ms. Brownley. Is there anything that the FAA is not doing 
that is impeding your progress, with regards to the tech 
center?
    Mr. Bevirt. I think the FAA has been incredibly supportive, 
very forward-looking, very innovative in embracing these new 
technologies and looking how to make them as safe as we 
possibly can.
    Ms. Brownley. Very good.
    Any comments, Mr. Prevot?
    Mr. Prevot. I just want to back up to the weather problem. 
I do think there is research that has to be done that is not 
tech center research, but I don't think we have enough of an 
understanding about the microclimates in urban areas. And so 
there is certainly a gap that needs to be filled.
    Ms. Brownley. Thank you for that.
    And I just have a few more seconds, but, Ms. Yak, I noticed 
that the Drone Advisory Committee has changed somewhat in terms 
of membership. And so I just wanted to know, given those 
changes, what can we expect the DAC to focus on in the near 
term?
    Mr. Merkle. Yes, thank you for that question.
    The Drone Advisory Committee is being somewhat 
reconstituted. But I was at the last meeting, and it is still 
very active, and it is very much focused on how can industry 
help the FAA with the integration of these exciting 
technologies. So I believe they are at the stage right now of 
identifying how industry can help.
    Ms. Brownley. Thank you, Mr. Chairman.
    Mr. LoBiondo. Doug?
    Mr. LaMalfa. Thank you, Mr. Chairman.
    For Ms. Yak and Mr. Merkle, I represent a very, very rural 
district in northern California, most of which is on fire right 
now. A new one last night just turned into 15,000 acres in 
about 10 hours. So the use of drones and aircraft that can 
remotely do the type of work needing to be done, expecting 
power lines, especially with that interface with forestry, or 
dams, anything that is very remote, very tough terrain, you 
know, sending them in for helping to spot fires where 
visibility is not good for normal aircraft, it is a great tool 
for many, many areas in remote and, again, rugged terrain.
    But what is the current status of allowing more beyond-the-
line-of-sight technology with drones being approved by FAA and 
being able to be more widely used, you know, other than what 
you have in the military and other limited uses, something that 
could be used more privately with proper certification, et 
cetera?
    Mr. Merkle. Thank you for the question.
    We are currently operating--or our partners are operating 
flights that are beyond visual line of flight. Working with 
BNSF, the railroad, they are doing linear inspection under a 
COA. So we are seeing progress there.
    We also----
    Mr. LaMalfa. Is that more of a pilot situation, or is it 
becoming more mainstream, widespread, et cetera?
    Mr. Merkle. It is setting the foundation for spreading that 
technology and those procedures to other operations.
    Likewise, we recently had a flight at NASA, a No Chase COA, 
which was operating in the airspace with other manned aircraft. 
So it is really a major step towards full integration into the 
airspace.
    But, again, this is why remote ID and repeal of section 336 
is so important, especially in these rural areas where you 
would likely see general aviation or crop dusters or other 
things operating at the same altitudes with these type of 
aircraft. It is very important that all the operators in the 
airspace see each other.
    Mr. LaMalfa. With the ID that you were talking about and, I 
think, Mr. DeFazio brought up initially too, how far and wide 
can that aircraft ID? I mean, to every, you know, toy-store 
drone? Or, I mean, how far can we go with this stuff in order 
to have it not be impractical but also be helpful with, you 
know, people with these vehicles?
    You mentioned the one that somebody flew around near a fire 
zone up there in Oregon that completely shut down the 
operation. It could have been as simple as just a toy-store 
drone or something like that somebody was fooling around with. 
How far down can we regulate or track every single vehicle like 
this?
    Mr. Merkle. We would certainly like to track it, at a 
minimum, down to the same requirements that we have in part 
107, the 0.55 pounds. Potentially, there may be some different 
performance characteristics that come in as people develop new 
aircraft. We might have to revisit that.
    But we are currently in the process of--we are post the 
Aviation Rule Committee on the remote ID, and we are in the 
process of developing a rule on that. And I expect that some of 
these details will come out in the notice of proposed 
rulemaking.
    Mr. LaMalfa. Do you anticipate, then, some type of a device 
on every possible drone, putting out a signal of some sort 
that----
    Mr. Merkle. We do. Much like every car has a vehicle 
identification number and all of us who drive them have 
registration and license plates, we believe, based on the 
recommendations from the Aviation Rule Committee, every drone 
should have an identification.
    Mr. LaMalfa. A transmitting signature.
    Mr. Merkle. Transmitting the signal and available via 
network to all the other operators in the airspace.
    Mr. LaMalfa. OK. With all this flying-car business being 
talked about, every prototype ever seen is neither good at 
being a car or at being an aircraft. They are very low-
performing as a car and low-performing as an airplane.
    So how is this integration with, you know, a purpose 
aircraft, you know, the modern, private-pilot-type planes with 
the integrating and the lanes we are talking about, with an 
aircraft that cannot perform nearly at that level? As well as, 
when you put it on the street, I mean, you know, you have wings 
and everything. What is the practicality of trying to do both 
in one vehicle?
    Mr. Merkle. We have a----
    Mr. LaMalfa. And up in the airspace with other higher 
speed, you know, more normal aircraft.
    Mr. Merkle. Right. That is a challenge, the integration of 
these vehicles. But much like we integrate helicopters in busy 
metropolitan areas or general aviation, which have very 
different performance characteristics from a passenger 
jetliner, we believe that the concepts like under UTM and the 
dynamic routes will provide us with the structure that will 
allow us to safely manage these aircraft in the airspace.
    Fundamentally, the routing addresses the structure and 
procedures portion and allows safe integration. And the 
automation behind UTM allows that solution to scale to the 
number of drones.
    Mr. LaMalfa. OK. Thank you.
    Thank you, Mr. Chairman.
    Mr. LoBiondo. Andre, questions?
    Mr. Carson. Thank you, Chairman. Yes, sir.
    When we talk about operating drones beyond the operator's 
line of sight, that means pretty much relying on some high-tech 
computer software and other technology.
    After we have all seen the staggering number of flight 
delays or even cancellations in the past few years during very 
high-profile computer outages, particularly with Southwest and 
even Delta, I wonder what risks there are or there may be for 
drone and even UAS systems as it relates to similar outages.
    And, secondly, what are the lessons learned from the 
airline outages, from our subcommittee perspective and your 
perspective? And what can be done to prevent these outages and 
future sloppy housekeeping?
    And are drones subject to mass outages?
    Mr. Merkle. We are in the very early stages of UAS traffic 
management. We are really moving from the NASA research in the 
concepts into operationalizing that. So the specifics on how we 
design the availability really aren't there yet.
    However, we do know that the concepts behind UTM, such as a 
distributed network and many actors, are much more resilient 
than, say, a single data center. So we believe that the 
concepts have the kind of resiliency built into them. And as we 
partner with companies like Uber and Joby and Skyward, I 
believe that their innovation and what they bring to the table 
will provide the solutions that bring that resiliency.
    Mr. Carson. OK.
    Mr. Prevot. Yeah, I think it is also key for us to design 
our systems for exactly these cases so that even if outages 
were to occur and the drones were disconnected from the 
network, that we could be sure that we can still safely land 
them in safe locations.
    Mr. Carson. OK. Thank you.
    Anything from the engineering mind?
    Mr. Bevirt. I wholly agree that a distributed network with 
diverse communications and then additionally with the aircraft 
able to fly and land themselves safely and de-conflict safely 
without the centralized control system is critical, so 
multilayered redundancy is really, really important.
    Mr. Carson. OK.
    Gentleladies, nothing?
    All right. I yield back, Chairman. Thank you.
    Mr. LoBiondo. Scott, you are up.
    Mr. Perry. Thank you, Mr. Chairman.
    Mr. Merkle, Pennsylvania has faced a series of disruptive 
weather events this year, resulting in a lot of power outages. 
One utility in the district I'm privileged to represent, PPL, 
has used UAVs effectively in the recent storms and flooding 
events to assess dangerous situations and reduce response 
times. They did this without the benefit of beyond-visual-line-
of-sight, a capability, as you know, that improves safety and 
response time for power restoration.
    And, of course, I urge the FAA to continue to work, as 
directed by Congress, to give utilities the ability to employ 
the beyond-the-visual-line-of-sight operations to respond in 
emergency situations as well as routine maintenance, inspection 
efforts, et cetera.
    But short of beyond-the-visual-line-of-sight, hurdles 
remain for utilities' use of UAVs even within a line of sight 
in Class C airspace. And I am just wondering--I certainly 
understand--I am a helicopter guy, so I understand the 
sensitivity in Class C airspace. Is there some way utilities 
can be granted a blanket approval to fly the UAS below the 
energized utility? So we are talking power lines. I don't know 
that any commercial or otherwise, quite honestly, other than 
the military, is flying below the utility even in, you know, 
Class C or other towered airspace.
    Mr. Merkle. So we are working towards that goal. As I said, 
the BNSF partnership has identified the kind of underlying 
technologies that will make that capability possible throughout 
the airspace. And really it comes down to the specific 
utilities and companies coming in and applying to the FAA and 
working through.
    These cases tend to have unique characteristics around 
them, and so it does take some human judgment and collaboration 
with the applicant to figure out the safest way to integrate. 
But we are actively integrating aircraft like this in Class B, 
Class C, Class D airspace all throughout the NAS.
    Mr. Perry. So is that something that they can apply for 
now?
    Mr. Merkle. Yes, it is.
    Mr. Perry. Is that right? OK.
    Mr. Merkle. It is. And we have companies doing similar 
things now.
    Mr. Perry. All right. Thank you.
    Mr. Bevirt and Ms. Scott, I am just curious, regarding the 
remote ID and tracking, are we talking about current 
transponder technology with a Mode C, or are we talking about 
something completely different for that?
    Ms. Scott. Most current technology is not going to be 
suitable for the smaller drones. But the Remote ID Aviation 
Rulemaking Committee that Mr. Merkle referenced, we also 
participated on that committee and made recommendations for 
technical implementations that can meet the performance 
criteria that the FAA would like. And there are a number of 
different ways that that can be done.
    There are also a couple of different technical standards 
bodies--ASTM, 3GPP, CTA--that are also working on technically 
how can we adapt existing technology for these different form 
factors.
    Mr. Perry. So just, you know, the guy that is curious--and 
I think probably other people are too--are we talking, like, 
cellular technology?
    I am picturing, like, a transponder head, right? And then 
the radio itself is either right there in the console or it is 
in the back, and it is heavy, you know, and so on and so forth. 
Are we talking cellular technology or something other than 
that? What are we talking about?
    Ms. Scott. Certainly cellular technology and cellular 
connectivity is an option for providing that kind of 
connectivity.
    Mr. Bevirt. And then there is also, in the near term, ADS-
B. Of course, ADS-B has its limitations, but it is getting 
deployed rapidly, currently, on the existing aviation fleet, 
and it provides an important first step.
    Mr. Perry. And just out of curiosity, you know, this is a 
commercial enterprise, and I think it is a fascinating concept 
to just ponder and to see happening. And I am assuming that you 
are planning on all-weather capability, right? It sounds like 
it, right?
    So I am picturing myself, like, wanting to get in this 
machine, right, that doesn't have a pilot in it. And there is a 
thunderstorm; you can see it coming, right? I mean, you have 
been in the aircraft when the--you know, it is one thing, 
maybe, sitting in the back, but when the rain is pounding on 
the windscreen at a buck-20 or whatever you are at, it is 
unnerving.
    And what is the--I mean, do you do, like, customer surveys 
or studies? You know, I would think this would be somewhat 
fearful for a lot of people.
    Mr. Bevirt. Yeah, I think the weather research and the 
sensing--there are a lot of really exciting sensing 
methodologies--airborne LiDAR--that give the aircraft the 
ability to see vertical windshear and see thunderstorms that 
the human eye can't see.
    But I think before you are getting into an autonomous 
aircraft in a severe weather situation, there is a huge amount 
of work that has to be done on the artificial intelligence 
algorithms to prove that they can make decisions around weather 
that are better than a human pilot. And I think that that will 
be many years to come.
    Mr. Perry. My time has expired. I thank you.
    Mr. LoBiondo. Steve?
    Mr. Cohen. Thank you, Mr. Chairman. I appreciate you--I 
appreciate you for many of your votes. One time, one of these 
magazines paired the Democrat who voted most with the 
Republican, and I was with you. So you are going to have to run 
for reelection, so I can make it more public now.
    Mr. LoBiondo. I will have to work on that.
    Mr. Cohen. Yeah. Thank you. I was honored, though.
    But thank you and Mr. Larsen for holding this hearing. The 
emergent drone industry is gonna make a big difference in our 
country, and it is imperative we set the framework right.
    We also have to pass the FAA authorization before the 
September 30th deadline. That is the big work of our committee. 
As a matter of health and safety, I urge the Senate to adopt 
the SEAT Act provision included in the House bill that was 
passed, H.R. 4. The U.S. Court of Appeals found that the FAA's 
justification to not review the safety risks of more cramped 
passengers as ``vaporous.''
    And now the inspector general is auditing the FAA for its 
failure to take the issue seriously. There is a safety and a 
health problem with the size of seats, the pitch of seats, and 
all of that. And the FAA needs to do its duty and make sure 
people can evacuate airplanes in the required time.
    We need to pass a longtime FAA authorization and include 
the SEAT Act that was passed unanimously by this committee and 
overwhelmingly by the full House.
    In May of this year, Memphis was 1 of 10 areas selected out 
of 150 applicants to participate in the Department of 
Transportation's drone integration pilot program, and I was 
honored to be at the announcement. According to the Department 
of Transportation, the potential economic benefit of drone 
integration into the national airspace will be upwards of $82 
billion and create up to 100,000 new jobs. Big news for Memphis 
and the Nation.
    In Memphis, some of these airspace integration 
demonstrations include airport, runway, and aircraft 
inspections; perimeter surveillance and geofencing; medical 
device and consumer package delivery; and environmental 
protection efforts, such as coastline erosion detection. The 
airport authority is partnering with industry giants like 
FedEx, General Electric, Intel, and others.
    Just this past Thursday, 901Drones, FedEx, the Memphis Fire 
Department, and others, including officials visiting Memphis 
from the FAA, successfully completed a demonstration of 
important perimeter geofencing safety measures to keep drones 
from flying into the designated zones and critical safety 
redundancies to keep the public safety and airport operations 
unaffected.
    Drones have boundless real-world applications, and Memphis 
is now at the center of this rapidly growing industry. It is 
important we get the policy framework right. It has to be 
absolutely, positively right, as FedEx would say.
    First question is for Director Yak. The University of 
Memphis is a close partner in the Memphis drone program and 
brought to light an insightful concern: The role of local 
municipalities is not mentioned in the hearing summary of 
subject matter. It seems clear that local municipalities will 
play a large role in future airspace integration efforts.
    While programs such as the FAA's integration pilot program 
go a long way toward helping that develop, does the FAA have 
any plans to work with Congress or request Congress to help 
communities develop the necessary infrastructure that will 
allow the potential benefit of drones to be realized?
    Ms. Yak. I was checking with Jay because I thought that 
actually fell into his arena.
    I think the DOT and FAA, as you can see by the 
establishment of the Integration Pilot Project, is 
understanding and seeing that there is a wild world out there--
``wide,'' not ``wild.'' And what I mean by that is, whenever 
you take technology regulation, particularly from a safety 
perspective, you need to look at it from a societal perspective 
too. What is the impact on society? What is allowed? And what 
should the rules be?
    We are progressing in a number of partnerships with 
industry as well as with the local governments and that to be 
able to understand this world that we are entering in. From a 
research perspective, we got the technology down. We are 
looking in that--we are looking at that with our partners. We 
are looking at that and how to better regulate. But it is the 
IPPs and the working with the local governments and the Tribal 
communities to understand the use and then what are the ways to 
enable this technology in their area.
    Mr. Merkle. I would just add to that, just as we do with 
manned aviation today, we actively work with our local 
communities when we are planning new airspace utilization 
projects, and so we would expect that to continue.
    And, as you pointed out, the IPP is critical to opening 
those relationships with the local communities around drones 
and identifying the issues that are of concern to them and 
working with them. And we fully expect the research and the 
actions coming out of the IPP to inform how we adapt and evolve 
to the future for the drones.
    Mr. Cohen. Thank you.
    And I think my time is about up. And I came late, so maybe 
I am taking a little risk, but, Dr. Prevot, I understand you 
talked about Uber doing Uber Eats by drone?
    Mr. Prevot. That is correct.
    Mr. Cohen. You know, about 30 years ago, I was in the State 
senate, and somebody showed me a phone. Of course, it was like 
this, it was gigantic. And he said, we are going to have--like 
Dick Tracy, we are all going to have phones. And I said, you 
are crazy. Well, I was wrong.
    Mr. Prevot. Yep.
    Mr. Cohen. So Uber Eats by drone, is this--I mean, does the 
drone go to the restaurant and then kind of knock on the door? 
How does it get in? I mean, The Rendezvous is downstairs. How 
does the drone get downstairs to get my ribs?
    A Voice from House Dais. To your balcony.
    Mr. Prevot. We were experimenting with different concepts 
there that can involve couriers, as well, in the process. 
Because we already have a food delivery business, and so the 
drone may also only take the food from our courier to another 
courier, potentially, on the other side. Or we can have fixed 
infrastructure.
    Part of our integration pilot program is experimenting with 
different concepts and seeing what works best. But the main 
idea is, yes, you push a button, and you get your burger or 
sandwich a little bit faster.
    Mr. Cohen. I am all for it. I use Uber Eats, and it is 
great. I just can't imagine some drone going into a--the 
future.
    Thank you. I yield back.
    Mr. LoBiondo. The gentleman from Georgia.
    Mr. Woodall. Thank you, Mr. Chairman.
    I may have missed it at the beginning, but all this talk 
about moving people and places, I hadn't heard any mention of 
part 135 and what the impact is there.
    Can someone help to lay out for me, from an expert 
perspective, what the evolution is going to be, from the part 
135 requirements we have today for charter aircraft to the fact 
that I can climb in an Uber with absolutely anybody today and 
get to where I need to be?
    Mr. Bevirt. Yeah. So one of the things we are planning is 
to launch our service as a fully piloted aircraft and with a 
professional pilot on board from day one. And over time, our 
sensing systems and our software systems will provide that 
pilot increasing levels of automation. And one day, we may end 
up flying these fully autonomous.
    But we are really focused on operating fully within the 
existing part 135 standards. And we expect that those--in our 
conversations with the FAA, it has been confirmed that we have 
a path forward to launching this service and this operation.
    Mr. Woodall. Now, I understand that within the current 
bandwidth of regulation. Though, there was a time I had to find 
somebody with a taxi medallion in order to do ride-sharing, and 
now we trust a much broader pool of people.
    Do we expect, as we are training autonomous--not 
autonomous--as we are training remote pilots, as we are 
training more and more ordinary, everyday drivers to be in the 
sky, do we expect an evolution in a regulatory framework? Or 
are we expecting part 135 to remain with us for a generation to 
come?
    Mr. Merkle. We believe our current regulatory framework can 
address these challenges and can be adapted to provide 
operating certificates for--operators-type certificates for 
aircraft and pilot licenses as well. It is really a matter of 
understanding what was intended by a regulation like part 135 
and working with the applicant to ensure that their 
implementation meets the intent.
    Mr. Woodall. And as you all are looking regulatorily and 
through the lens of technology, do you expect me to be flying 
in an autonomous aircraft or in a remotely piloted aircraft 
first?
    Mr. Merkle. I will let my colleagues answer that.
    Mr. Prevot. Uber is also intending to fly with pilots 
first. But the model is probably going to be more remotely 
piloted than--not necessarily with a single pilot per aircraft. 
Kind of as another transition period, actually, we will manage 
our fleet very precisely, because it has to integrate into a 
multimodal trip. We have the first mile, we have the last mile 
that we need to connect into. So there is really not as much 
flexibility for the aircraft to do anything themselves, at 
least in our model. We believe it is going to be very highly 
remotely piloted, but it might be remotely piloted by a largely 
automated system.
    Mr. Woodall. And in order to get the broad adoption that we 
would all like to see, is the expectation that we are always 
going to be talking about electric aircraft, that we concede 
there is no place for combustion aircraft in airspace close to 
our homes?
    Mr. Bevirt. That is certainly our view, that both from an 
emissions standpoint and, even more importantly, from an 
acoustics standpoint, that fully electric is necessary to make 
this technology ubiquitous.
    Mr. Woodall. And given those range challenges as they exist 
today, a remotely piloted aircraft certainly seems to speak to 
ROI, if I could put two people in an airplane to get to where 
they need to go instead of just one.
    As you are looking for capital, as capital is being 
attracted to these ideas, where is that capital flocking today? 
Is it on the autonomous side? Is it on the remotely piloted 
side? Is it all going to piloted proof-of-concept projects?
    Mr. Bevirt. So our particular aircraft is a five-seat, so 
it has a single pilot and four passengers. And we are fully 
electric, and, as you mentioned, that reduces our range 
capabilities. Today we can only fly about 150 miles, plus an 
FAA reserve, a 30-minute reserve for safety. And so that limits 
our operations to--this is not something you are going to take 
cross-country.
    But we do have ambitions to be able to fly from DC to New 
York or from New York to Boston in the not-too-distant future. 
So we see huge improvements coming on the battery front that 
will extend that range and make this not just, you know, for 
one geographic area, but be able to network different 
geographic areas together, which we believe will have a really 
profound effect on the economy and the ability for people in 
geographically disparate locations to communicate and work 
together more effectively.
    Mr. Woodall. Thank you all for your pioneering work and 
your expertise today.
    Mr. Bevirt. Thank you.
    Mr. Woodall. I yield back, Mr. Chairman.
    Mr. LoBiondo. Donald?
    Mr. Payne. Thank you, Mr. Chairman and to the ranking 
member. I appreciate this opportunity to be here.
    And, Ms. Yak, it is nice to see you again. I had the 
pleasure of touring the Hughes Technical Center in Chairman 
LoBiondo's district a year ago and was very impressed with the 
work being done there.
    As you know, I represent a densely populated urban 
district. Noise from trucks, buses, Newark International 
Airport, and helicopters are a constant concern for my 
constituents. I would like to hear more about the FAA's work on 
noise-mitigation research, specifically with regard to UAS and 
flying cars.
    I know we are getting in the future with George Jetson and 
his boy, Elroy. And so, you know, obviously, it is not very far 
off. So, you know, I know it is really not a big issue now, but 
as this technology becomes more common, we should not be adding 
to the seemingly intractable problem of aircraft noise in urban 
areas.
    Can you----
    Ms. Yak. Absolutely. Thank you for the question.
    As I mentioned earlier, balancing technology with community 
concerns is a very important part of the process. Our UAS 
implementation plan does include in it obtaining and 
researching noise information, noise data. In fact, the 
integration pilot program is also providing us the data 
regarding noise so that we can start using that noise 
information to start analyzing it and determining how to use 
that information for certification requirements and affecting 
the aircraft performance of the future.
    With that, I will hand it over to--oh, Jay said I hit all 
the points, so I must have done good. But my peers, I think----
    Mr. Payne. Yeah, if anyone else could elaborate, I would 
appreciate it.
    Mr. Bevirt. Yeah. So noise is near and dear to my heart, 
and specifically for operations in and around urban areas, we 
expect it to be significantly below the background levels, such 
that the aircraft operations will be inaudible. In suburban and 
rural areas, the noise levels are very low, but you will be 
able to hear the aircraft in a very quiet environment.
    But for your constituents, we have done a huge amount of 
work, again, making these aircraft more than 100 times quieter 
than a helicopter.
    Mr. Payne. Yeah, because, I mean, you know, if you have bad 
weather in Newark Airport, they shift the runways, and it comes 
right over the South Ward, where I live. And, I mean, you would 
think the wheels are going to hit the top of some of these 
homes, you know, on the trajectory that they are coming in.
    And believe me, we really get hammered, you know, about 
this and the helicopter issue. In Jersey City, it has become a 
big problem. These tourist helicopters are flying closer and 
closer into areas across from New York to get the view, so they 
straddle the river in New Jersey. And, you know, these 
constituents are just going crazy. So it is something that is 
very important, and, you know, I need to continue to stress the 
need to continue to work on this.
    So I see the potential for flying cars to reduce the stress 
on our roads, infrastructure, and help mitigate congestion 
issues facing districts like mine. But I am concerned on how 
the law enforcement and homeland security experts will deal 
with this emerging technology in the hands of bad actors.
    If you walk around Capitol Hill, you will see the curbs and 
streets are lined with barricades, in part to prevent cars 
driven, you know, by bad actors from accessing this critical 
space.
    How do we engineer our cities to deal with cars that can't 
be blocked by ordinary barricades? What discussions is the 
industry having around that aspect?
    Mr. Bevirt. So we can put up--just like with cars you can 
put up a physical barricade, because of the control systems in 
these aircraft, you can actually put up digital barricades. And 
so we can constrain these aircraft so that the control system 
physically can't create a trajectory that can go where we don't 
want it to go. So the aircraft can, whether it is the pilot or 
one of the passengers in the aircraft, if they try to----
    Mr. Payne. Deviate from the----
    Mr. Bevirt [continuing]. Deviate from the trajectory, it 
just physically won't go. So these are digital barricades.
    Mr. Payne. What happens to it? It just stops?
    Mr. Bevirt. Let's say this is the barricade, you know, this 
is the no-fly zone. It will just find a trajectory around----
    Mr. Payne. Oh, it will force it away from--oh, OK. All 
right. Well, that's pretty interesting, pretty neat.
    Well, with that, I will yield back. Thank you very much.
    Mr. Bevirt. Thank you.
    Mr. LoBiondo. Lloyd, you are up.
    Mr. Smucker. Thank you, Mr. Chairman.
    Ms. Yak, over here. I may have missed earlier testimony 
along the lines of my question. I have been back and forth 
between two hearings. But I wanted to specifically follow up to 
your written testimony in regards to UAS, small drones.
    Just as you mentioned, there are a lot of commercial 
application entrepreneurs who are finding more and more ways to 
use drones to make their operations more efficient. Two 
particular areas in my community: agriculture for crop 
assessment and then inspecting infrastructure like power lines, 
for instance.
    And, you know, what I hear from them is line of sight has 
been an issue, the ability to operate beyond line of sight. And 
I read in your testimony that there is an ability to get 
waivers today. And I guess I wanted to understand a little bit 
more about that.
    Generally, who is receiving those waivers, and for what 
purpose? How easy is it to get a waiver? And do you think we 
will be changing the regulations to make that easier?
    And I certainly understand the security concerns as well. 
We are seeing, you know, potential use of drones by terrorists 
or in other activities that we obviously don't want to see.
    But I would just like to hear your response to that.
    Ms. Yak. Mr. Merkle will respond to that.
    Mr. Smucker. OK. Great.
    Mr. Merkle. Thank you for the question.
    Let me first address the evolution. Last month, the FAA 
published an updated version to our UAS roadmap that plots the 
evolution towards beyond visual line of sight, package 
delivery, urban air mobility, passengers, that sort of thing.
    But the fundamental next step and necessary next step is 
remote identification and the repeal of section 336, because 
that allows us to identify every aircraft in the airspace. And 
then that will make it much easier to move towards beyond 
visual line of sight.
    We also have had recent success with flights, such as our 
partner, BNSF, the railroad, which is now doing linear 
inspection beyond visual line of sight, a No Chase COA. So we 
are seeing that emerge. It really isn't tomorrow; it is today.
    And you are correct, it is done by a waiver process. And, 
yes, anyone can apply. And depending on whether you need a 
waiver for the aircraft or for airspace, you apply, actually, 
to the same website. It is on the UAS website for the FAA you 
apply.
    Mr. Smucker. So it is a website application, and what is--
--
    Mr. Merkle. It is a website application, yes, and then 
humans get the email.
    Mr. Smucker. What is the criteria for receiving a waiver?
    Mr. Merkle. The criteria for receiving a waiver--it depends 
on what you are asking for. So it really does take a case-by-
case analysis for each waiver. Because it may have implications 
for the specific airspace you are in or other hazards or other 
things going on around there or the particular aircraft. So it 
really does take human analysis at this point.
    But as we move down the path towards UAS integration and we 
get things like remote ID and beyond-visual-line-of-sight, then 
the waivers will no longer be required.
    Mr. Smucker. Yeah. All right. Thank you.
    And a second question. Mr. Prevot, in regards to the 
airline industry, there is today a severe shortage of pilots. 
And I know that you had mentioned in your testimony one of your 
key business challenges is pilot training.
    And I am just curious, with the introduction of aerial 
ride-sharing, do you think that will increase the demand for 
pilots? And how will you address the issue of a limited 
workforce?
    Mr. Prevot. Yeah, it will definitely increase the demand 
for pilots, as we want to operate for quite a while with 
pilots. And, initially, we will only utilize pilots that are 
certified by the FAA, starting with certified helicopter pilots 
most likely.
    We would like to get the vehicles simpler to be operated so 
we might be able to extend this to fixed-wing pilots as well. 
And there might also be an opportunity to basically create a 
new training program and train up new possible pilots for this 
job.
    Mr. Smucker. This is a common issue that we hear about here 
in Congress. Do you have any suggestions for what we can be 
doing here to better address a labor force issue like this?
    Mr. Prevot. I am supportive of some of the simplified 
vehicle operation type things.
    Mr. Smucker. Thank you.
    Mr. Bevirt. Can I----
    Mr. Smucker. Sure.
    Mr. Bevirt [continuing]. Add something to that?
    So one of our investors is JetBlue. And we are actually 
looking at this as a huge opportunity, where we can provide a 
training ground for pilots that can then, after flying with us 
for several thousand hours, transition and begin flying 
commercial operation, similar to the partnerships that part 135 
operators have had with part 121 operators historically.
    And so there is really a fantastic opportunity to drive a 
huge amount of interest into becoming pilots and then for those 
pilots to have long careers in the part 121 operation. So we 
think this is a huge feeding ground and a really spectacular 
opportunity, which we are very excited to be working on.
    Mr. Smucker. Good. Thank you.
    Mr. Bevirt. Thank you.
    Mr. LoBiondo. Are you yielding back?
    Mr. Smucker. Yes.
    Mr. LoBiondo. OK.
    Ms. Norton?
    Ms. Norton. Thank you, Mr. Chairman. I very much appreciate 
this hearing. Always excited to hear about the subcommittee 
thinking futuristically, because it is happening anyway. So I 
am very interested in autonomous cars and autonomous aircraft. 
This is a very controlled space in the Nation's Capital that I 
represent.
    Recently--and I suppose this first question is for Mr. 
Bevirt or perhaps Dr. Prevot--we have seen how, with or without 
the Congress--and it looks like without--autonomous cars are 
moving, some of them being tested on the streets, and there has 
been an occasional mishap. That gets a huge--if we had the kind 
of publicity that gets to the daily accidents on the road, we 
would be reading nothing else in the paper. But what we do know 
is that these autonomous cars are far safer than you or me at 
the wheel.
    Given the fact that the public gets scared off, perhaps, by 
one single accident, as we have had in the recent months, how 
close are we to moving toward remote or pilotless aircraft? Is 
this still something that needs a lot of work, even though, to 
our credit, the subcommittee is thinking about what you are 
doing now? I mean, this is not anything that is going to happen 
within the next 10 years, or what is your best estimate on 
that?
    Mr. Prevot. I think there are many pieces in place. 
Aircraft basically today are flying highly automated already. 
But I believe we have to collect a huge amount of data, 
actually, with pilots on board to make sure that we can prove 
that these systems are ready to be autonomous, that we have 
covered all the cases. So that is kind of the approach that we 
are taking, having the pilots on board.
    And then it may also not be a one-size-fits-all. It could 
be that we can prove that certain routes, certain circumstances 
have never had the need for a pilot to intervene and we have 
got everything covered there, so we can incrementally start 
removing the pilots from those vehicles.
    But I do think it is certainly a number of years out.
    Mr. Bevirt. Yeah, I would wholeheartedly agree that the 
goal is to demonstrate, as you spoke about, Congresswoman, that 
these systems have the potential to be much safer than human-
piloted aircraft.
    But there are things like weather, for example, that we 
talked about, where humans and our cognitive abilities to make 
really complex decisions are really quite spectacular. And so 
we want to leverage the skills and the capabilities that the 
human pilot has as well as the skills that the autonomous and 
automated systems have. And so----
    Ms. Norton. Yeah. Well, I want you to help us think, for 
example, if there are autonomous cars and autonomous aircraft--
remember, we have pretty close to autonomous planes and 
autonomous underground railroad. We just had a spectacular 
accident here, I don't know, about a dozen years ago with 
somebody at the wheel. But our underground subways basically 
drive themselves and have been doing so for a long time. And 
when a pilot gets in the air, you know, he is not sitting there 
driving the plane. That plane is on automatic pilot as well. So 
it is pretty clear we are already there.
    But if we go to autonomous planes and everybody can have an 
autonomous plane--you don't even have to drive it, because now 
it is autonomous--we may be into--Mr. Prevot, perhaps, 
understands this--we may be into what we have here in the 
District of Columbia, and I would dare say perhaps my 
colleagues have the same as well. Now we have a lot of 
congestion on the roads because anybody can get an Uber or a 
Lyft. And those of us who ride them are very glad they are out 
there.
    But, Mr. Prevot, what we have done here in the city is--or 
at least there is a proposal to put a tax on Uber and Lyft so 
that we can help fund our underground Metro, as we call it, our 
underground railroad, which is going broke, so that we would 
have a choice and not be left, as we are now, with one or the 
other.
    And what Uber and autonomous cars and the like provide are 
choices. Yet there may need to be a whole new set of traffic 
rules, a new set of who gets to drive. Perhaps we in the 
Congress ought to be thinking about this or even more so at the 
local level. And I realize I am asking you to think in the 
future, but that is what we are trying to do here today.
    So when you think about how we would have to deal with 
congestion--perhaps we would have less congestion, perhaps, in 
the air. Perhaps we would have more. Perhaps we would have 
fewer accidents, perhaps more. Who needs to be thinking about 
that, who is thinking about these kinds of issues, as we get 
excited about autonomous vehicles?
    Do you want to begin, Dr. Prevot?
    Mr. Prevot. Yes. I believe that going to the air gives you 
more choices, just as you said. I mean, now you have another 
way of doing a multimodal trip. And we certainly have to think 
about the congestion that it might create in the air, that it 
also might create around the skyports.
    As we optimize trips through our network, we see Uber, for 
example, as a platform, where we also want to integrate with 
public transportation and with all these other means.
    Ms. Norton. So you understand why the District thinks that 
Uber ought to help us pay for underground transportation even 
as we have had to make room for more Ubers on the road here.
    Mr. Prevot. Well, I would say that is not necessarily my 
area of expertise.
    Ms. Norton. I would like you to submit to the chairman what 
those whose expertise it is to know about this think about 
using some form of transportation to help fund another form of 
transportation.
    But go ahead.
    Mr. Bevirt. So I think that there is an incredible 
opportunity. Just as Congress funded our National Highway 
System and then funded the construction of many of our 
airports, there is an incredible opportunity here, as Congress 
looks forward, to think about how to support this new and more 
efficient mode of transportation.
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. LoBiondo. Jason?
    Mr. Lewis. Thank you, Mr. Chairman, and thank the ranking 
member as well for having this hearing. Very, very informative. 
We are, indeed, embarking on a brave new world here, which is 
really, really exciting.
    But I do want to drill down a little bit as to, you know, 
what I describe, and for lack of a better term, as a common-law 
nuisance, to make certain as we embark on flying cars or 
package delivery or however we use the airspace, that people 
aren't using their property to the detriment of the enjoyment 
of other people's property. And, traditionally, that has been 
regulated at the local level, as you know. So whether we are 
talking about passenger technology, as you have, or package 
delivery or, in the case of public safety or public use, the 
concerns of privacy.
    And I will just give you a quick example. In San Francisco, 
we thought we could relieve congestion by putting these shared 
and dockless bikes on every corner. We have them in Washington, 
DC, now. In San Francisco, they are saying, get them off, they 
are a nuisance. So, you know, the law of unintended 
consequences may have a role to play here.
    So I guess I would start with Ms. Scott on this. There is 
disagreement in the community on preemption, on who should 
control this so that we can maximize this brave new technology, 
as I say. There are some at the Uniform Law Commission that 
came out that do not agree with the position of Federal 
preemption on some of the regulations below the national 
airspace or below 300 or 400 feet. And there are others that 
say that is the only way to go.
    You have been looking at traffic management, obviously. Do 
you see a solution for this?
    Ms. Scott. Thank you for the question.
    We believe the FAA is best suited to provide regulatory 
oversight for all aircraft in the airspace--hobbyists, 
commercial, manned, unmanned, passenger drones--and that there 
is also an important role for States and municipalities to play 
in that. But we believe that there should be common operating 
rules. And just as there are for manned aviation, you have the 
FAA setting a Federal regulatory framework, but you have an 
important role for States and locals to play in how they 
balance concerns around privacy----
    Mr. Lewis. But if someone next to an airport is tired of 
their dishes being rattled every time a plane lands, they 
usually go to the local authorities first.
    Ms. Scott. And we agree that there is a role for State and 
local law enforcement with drones, which is why we are such 
proponents of the remote identification for all aircraft that 
would allow a local law enforcement to be able to look up and 
see and easily distinguish who is a participant in the system 
and who might be a bad actor.
    Mr. Lewis. You know, it cuts both ways too. It is not just, 
oh, gosh, we have to allow the locals to regulate your 
particular industry or your endeavors. It cuts both ways. As I 
understand it, the Low Altitude Authorization and Notification 
Capability right now allows for single drone use. There was a 
group in my home State that wanted to use multiple drones for 
some air show or something, and they had to wait 100 days.
    So one common rule that has one jurisdiction across the 
country can actually operate to the detriment of what some of 
you are trying to do, as well, on the other side.
    Dr. Prevot, let's get your input on all of this.
    Mr. Prevot. I do believe that it would be very difficult if 
we have very different regulations across the country, 
especially for people who want to operate pretty much 
everywhere.
    You mentioned the Low Altitude Authorization and 
Notification Capability. I think it could be extended to handle 
these other cases as well. We are in the early stages of all 
this, so I believe we have to learn and see how the things work 
right now.
    Mr. Lewis. So, if somebody on Sunday morning at 5:30 is 
delivering a package to my next-door neighbor and buzzing 
around my window or buzzing around my backyard picnic later 
that day, I should call the FAA?
    Ms. Scott. I think, just as we have common operating rules 
for helicopters but municipalities might set rules about 
operating hours for when a helicopter can land downtown on the 
designated helipad, I can envision a similar balance between 
State and local implementation of those rules with a common 
Federal operating structure. I think the----
    Mr. Lewis. Let me just interject. I think we all agree that 
the common Federal operating structure is you can't allow a 
local rule to interfere with interstate commerce or the 
national airspace. So a municipality can't just come in and 
say, oh, let's just ban landings and takeoffs. That would 
obviously interfere. But below that, those rules and 
regulations, that is the question we are going to have to face, 
in my view.
    Ms. Scott. And I would say that I think the UAS integration 
pilot program is a great project for us to figure out how best 
to balance those local community concerns with Federal 
operating rules and collect data and really, real-time, see how 
does it work when you try to implement----
    Mr. Lewis. I certainly agree with that.
    Thank you, and I yield back.
    Mr. LoBiondo. Jimmy?
    Mr. Duncan. Thank you, Mr. Chairman.
    And maybe some of what I am asking about has already been 
answered. I was in another committee hearing for, I guess, the 
first hour or so.
    What I am wondering about, though, is this tremendous 
explosion of drones in number. I understand that the official 
FAA prediction on registered drones, it is now somewhere over 1 
million, and it is going to be 2\1/2\ million by 2022. The 
growth has been so fast over the last 3 or 4 years, I think 
that 2\1/2\ million may be a low estimate. And then I am told 
by staff that there are tens of millions of unregistered drones 
that hobbyists have and so forth.
    Are we going to, at some point, see a day where there will 
have to be some sort of limitation on drones? I mean, they, so 
far, already exceed the number of fixed-wing aircraft. So, if 
we have a 100 million drones in this country in a few years--I 
mean, do you foresee a time when we are going to have to limit 
the number some way? Or is the number just unlimited?
    Mr. Merkle. Thank you for the question.
    Just as in manned aviation we deal with capacity and 
efficiency all the time, there will eventually be some point 
where airspace capacity will be reached. We don't know where 
that is or when that will be. But until we actually evolve the 
concepts around UAS traffic management, we really won't know 
fully where those limits are.
    One of the fundamental principles of UAS traffic management 
is it uses automation to scale to the number of drones that we 
are anticipating. So we think that we will get far more 
capacity for the airspace with concepts like UTM than is 
reachable with our traditional air traffic control or air 
traffic management techniques. So we think the number will be 
much, much higher.
    But working with our partners as they evolve their concepts 
and they bring applications in, we will all together move 
forward in understanding how to manage capacity and efficiency 
safely.
    Mr. Duncan. And I also have seen articles about concerns 
about privacy, and I am wondering, does the FAA--is the FAA set 
up--Mr. Lewis got into this a little bit--is it set up to 
accept complaints now about drones? And are you getting very 
few complaints, many complaints?
    I would imagine that most people would call some local 
official. I don't think their first thought would be to call a 
Federal agency, but are you getting complaints about drones 
now?
    Mr. Merkle. We do, yes. Thank you for the question. We do 
get complaints. We get concerns. Our advice to anyone, 
particularly in areas of privacy or where they feel that a law 
has been broken, is to contact their local law enforcement 
first. That really is the best way to deal with these 
instances, because, of course, the FAA's mission is civil 
aviation safety.
    So we have no authority to enforce, you know, local privacy 
laws and that sort of thing. So always we refer them to local 
law enforcement, and we continue to try and educate the public 
that that is the correct way to deal with these concerns.
    Mr. Duncan. And are the number of complaints, would you 
classify them as very few or very many, or are the numbers of 
complaints going up some or rapidly or----
    Mr. Merkle. Unfortunately, that is a little beyond my 
particular expertise, but I would be happy to work with you and 
your staff to get you the specific numbers.
    Mr. Duncan. All right. Thank you very much, Mr. Chairman.
    Mr. LoBiondo. OK. Shelley, is there any work being done at 
the tech center to address and mitigate the possible security 
risks posed by UAS and other emerging aircraft technologies?
    Ms. Yak. Yes, there is, particularly from a cybersecurity 
perspective. And the work that we are doing does not 
necessarily begin and end with the drones. It is also for 
aircraft in general. And what I am referring to is the 
establishment of a cybersecurity safety threat and risk 
assessment methodology.
    You may ask, well, you know, what does a methodology do? 
Well, the methodology is the background that the procedures, 
the process that we use to be able to do risk assessments, 
measure what the risk is, what the vulnerability assessments 
are, what the threats are.
    By understanding what the threats are, then we can identify 
the mitigations. That is important twofold: one, from an 
industry perspective by understanding what the threats and the 
vulnerabilities are and what the potential mitigations are, 
they can start remedying them early in the life cycle. And from 
the FAA perspective, we can use that data for any rulemaking, 
certification, or guidelines.
    Now, that is the foundation for security and particularly 
cybersecurity. We are also looking at the technologies itself, 
again, with our industry partners, on security protocols to be 
used in data links, on data exchange rates, minimum operational 
performance on these systems that we have been talking about.
    Cybersecurity is all about security and resiliency, the 
human aspect if something happens, what is the reaction, the 
data availability and accessibility. So that is the type of 
research work that we are doing in regards to the cybersecurity 
and security of drones as well as urban air mobility aircraft.
    Mr. LoBiondo. So, Shelley, for you, and really for anyone 
else on the panel, what technological developments must be 
implemented before these new aircraft technologies can be 
safely introduced or integrated into the NAS?
    Ms. Yak. So you have heard a lot about remote ID, and I 
would say that every panel member here subscribed to the need 
for remote ID. We need to know where the aircraft is so that 
our pilot can stay well clear.
    We need the technology understood and in place for sensors 
and frequency management, a communication between the aircraft, 
the pilot, the pilot in controlled space with the controller. 
Those are essential.
    I am intrigued. I learned a lot from this panel. I enjoyed 
it as to the technologies that our colleagues are working on in 
the aircraft makeup itself, and we will be working with them 
closely on the performance requirements for those aircraft from 
the material they use as well as the propulsion method.
    So there is a lot of work to do. I think the UAS traffic 
management arena is blossoming well. We have a demo coming up 
in the 2019 timeframe, where the technical center will be 
working very closely with NASA on--and industry will be flying 
drones through our test sights, and we will be simulating 
drones out of our laboratory, our NextGen Integration and 
Evaluation Capability Laboratory.
    So that will be a lot of learning and a lot of data that we 
can use for future concept use and development.
    Mr. LoBiondo. Anyone else? No.
    So a brief sort of statement and then a question, Ms. 
Scott, for you. A couple of years ago, we had a devastating 
superstorm by the name of Sandy, and we have also had some 
devastating hurricanes in Florida and Texas and Puerto Rico. 
And I was very impressed when Verizon undertook the initiative 
to understand that in these devastating storms our ability to 
communicate is basically wiped out and witnessed in my district 
the--sort of the test of the flying cell tower on a drone, 
which was absolutely remarkable. So I want to commend you all 
for taking that initiative.
    But listening this morning to some weather forecasts from 
back home, there is a storm that is possibly moving up the east 
coast next week that has the potential to be a hurricane, not 
saying it is, which got me thinking, is that sort of drone cell 
tower operational now or limited basis, or where do we stand 
with that technology?
    Ms. Scott. So I haven't been----
    Mr. LoBiondo. Microphone.
    Ms. Scott. Excuse me. So the flying cell phone tower work I 
am familiar with is an R&D project, and I know that the ongoing 
research into characterizing how to do that, how the network 
performs, and what drones are suitable for that, that work is 
ongoing. I would be happy to refer you to some of the experts 
who are working on that project more closely.
    Skyward is actually used by Verizon to manage hurricane 
response operations, so we used Skyward to manage the 
deployments and the drones that we used at Verizon to respond 
to Hurricane Irma and Harvey, but that was more in a response 
surveying and inspection capacity.
    Mr. LoBiondo. Obviously the next 2 months are critical for 
hurricane potential, and I would be curious as to a followup 
from your folks to know the capabilities, if, in fact, we are 
hit with one of these again.
    Ms. Scott. I would be happy to follow up with you.
    Mr. LoBiondo. OK. Rick.
    Mr. Larsen. Thanks.
    Ms. Scott, in your testimony, you said for all its 
popularity, LAANC is a point solution that mitigates a specific 
logistical burden. That being the case, what would be the top 
three steps needed then to expand that or to get to the 
universal traffic management idea that you believe needs to 
happen?
    Ms. Scott. Great. Thank you for that question. We were the 
first service supplier to be approved to provide LAANC as a 
service, and it has had tremendous growth for the industry 
because it has opened up so many controlled airspaces to be 
possible for drone use, for safe drone access.
    What we would like to see in terms of improvements for 
LAANC specifically, first, it is still in beta and the FAA has 
been tremendously innovative in rolling it out and rolling it 
out quickly. We would like to see it move into a full 
deployment with the robust and secure funding that it needs to 
maintain adequate performance. We would like to see the 
inclusion of DoD and Federal contract towers in the LAANC 
system so that we can offer safe authorization to those 
airspaces as well.
    And we would like to see the ability to attach existing 
waivers to LAANC authorizations. So a number of our customers 
might have an existing waiver perhaps for night operations, and 
those authorizations currently can't be attached to a LAANC 
authorization. So that is just an additional system enhancement 
that would make it easier for our customers to get quick access 
to the places they need to fly.
    Mr. Larsen. Yeah. Great.
    Mr. Prevot, do you have the top three things that need to 
happen to get to a traffic management system that you all can 
take advantage of?
    Mr. Prevot. I agree with the remote ID that was mentioned 
before. I also agree that we need to have a right communication 
and spectrum management infrastructure. And, again, we have to 
prove out that we can properly interoperate between all the 
systems where we are working on already.
    Mr. Larsen. And, Mr. Bevirt, the big three.
    Mr. Bevirt. I would concur with Dr. Prevot and that we--
it--on UTM it is--we need to continue the funding for the work 
that the FAA and NASA are doing. And additionally, you know, 
for us to roll out this service, it is not predicated on UTM. 
We will be operating within the existing part 135 framework, 
but we do very much look forward to those tools becoming 
available so that we can scale to much denser operations.
    Mr. Larsen. Yeah. So just finally, I have been paying 
attention this whole time. You have probably seen me texting. I 
was texting my sophomore engineering student son in college and 
telling him about what this hearing is about. And he had a very 
interesting question that I wanted to pass on, because I think 
it is absolutely relevant, about getting from point A to point 
B and how the drone, with people in it, communicates to get 
from point A to point B. And I said, it is probably satellite 
communications. So he goes, I don't like it. If it is 
communicating through a satellite, why not just hack the 
flight?
    So the question really is kind of a fundamental one about 
not just the safety of will it fall out of the sky or is it 
safe to fly in, but the security--the secured communication to 
ensure that even a piloted drone or a pilotless drone has to 
get from point A to point B. And what--how are you thinking 
about the security of that communication of that flight so that 
flight gets from point A to point B?
    Mr. Bevirt. Yeah. I think that is incredibly important and 
including the--it needs to be redundant and diverse 
communication. So you have cellular connections. You could 
potentially have multiple carriers--cellular connections from 
multiple carriers and satellite communications. So that 
diversity in each of those links is secured such that the 
ability to have all of those communications simultaneously 
compromised is very, very low.
    Mr. Larsen. Yeah. Ms. Scott, have you--do you have some 
thoughts on this as a carrier or----
    Ms. Scott. Certainly, designing for security and 
reliability should be a top concern for any UTM system 
development and for the technical standards that support those 
systems. We are excited about the potential of LTE networks to 
provide that secure communications link and have been doing a 
lot of R&D work on that in the context of UTM development, and 
look forward to collaborating closely with the FAA and other 
regulators to understand the performance-based criteria that we 
need to meet and then being able to design for that security 
and resiliency.
    Mr. Larsen. Yeah. That is fine. I will just make one note. 
Next year, about the time you are rolling out the pilot on 
maybe the simulators and so on, maybe it would be a good time 
for the subcommittee to get back up to the tech center in the 
later winter, early spring.
    Ms. Yak. Great. That would be wonderful. And thank you 
again for coming out and seeing us about a year and a half, 2 
years ago. The employees at the technical center really 
appreciated your attention and taking time to see the great 
work we do. So thank you.
    Mr. Larsen. Whatever Frank wants, Frank gets.
    Mr. LoBiondo. Next year or two?
    Mr. Larsen. You will have to talk to your spouse about 
that.
    Mr. LoBiondo. All right.
    Mr. Larsen. And your dog.
    Mr. LoBiondo. OK. I would like to ask unanimous consent 
that the record of today's hearing remain open until such time 
as our witnesses have provided answers to any questions that 
may have been submitted to them in writing, and unanimous 
consent that the record remain open for 15 days for additional 
comments and information submitted by Members or witnesses to 
be included in the record of today's hearing.
    So I want to thank our entire panel. I think this was very 
interesting and informative. I thank you for your commitment 
and expertise to this particular issue.
    But, Shelley, if you would pass on a particular thanks to 
the thousands of men and women at the tech center who are doing 
such incredible work each and every day to keep our air system 
the best and the safest in the entire Nation.
    And with that, we stand adjourned.
    [Whereupon, at 12:17 p.m., the subcommittee was adjourned.]



                       Submissions for the Record

                              ----------                              


       Prepared Statement of Chris Rittler, CEO, Cape Productions

    Chairman LoBiondo, Ranking Member Larsen, and members of 
the Subcommittee, on behalf of Cape Productions, I appreciate 
the opportunity to provide a statement for the record for the 
Aviation Subcommittee hearing on the integration of new 
aircraft into the national airspace system.
    Today, organizations across industries ranging from oil and 
gas and public safety to agriculture, telecom and construction 
rely on the Cape Aerial Telepresence platform, which removes 
the limitations of traditional commercial drone technology to 
unlock the full potential of drone integration into operational 
workflows. Our technology, which is deployed in the United 
States, Mexico, the Middle East, and Australia, saves lives, 
prevents incidents, and makes people and property safer.
    Our technology allows remote users to manipulate a drone in 
real-time and with minimal latency (subject to the approval of 
Cape software and a remote pilot in command). While there are 
many applications for our platform, it is quickly becoming the 
preferred tool to help public safety professionals gain 
situational awareness and improve response times. For example, 
Cape recently worked with the police department in Ensenada, 
Mexico, to use drones for Aerial Intelligence-Led Emergency 
Response. When a call comes in to the police, a Cape drone is 
immediately dispatched to the scene, helping the commander put 
eyes on the situation and make informed decisions about whether 
and how to respond. The live feed is also available to the 
responding officers on their mobile devices, allowing them to 
monitor the situation in real time. After only four months of 
operation, the drone program has conducted more than 1,600 
operations and is credited with reducing crime by more than 10 
percent.
    Police, fire departments, and other public safety 
organizations across the United States are interested in 
adopting similar programs, but the current Federal Aviation 
Administration (FAA) rules and guidelines prevent public safety 
professionals in the U.S. from taking full advantage of Cape's 
technology. The restrictions on flying over people, at night, 
and beyond visual line of sight (BVLOS) limit the use of drones 
to specialized operations (e.g., launching a drone from a fire 
truck on the scene of an event) rather than using drones as a 
complementary first responder on a scene. While Cape recognizes 
communities can apply to waive these requirements, the process 
is arduous--each community must submit its own application--and 
the FAA has yet to approve a waiver to fully enable this type 
of operation.
    Cape applauds the Administration for launching the Unmanned 
Aerial System (UAS) Integration Pilot Program (IPP). The IPP is 
an opportunity for state, local, and tribal governments to work 
with the drone industry to accelerate safe UAS integration. The 
program is also designed to inform future FAA rulemakings to 
allow more complex drone operations. Cape is participating in 
the San Diego, California, IPP and is hopeful the FAA will 
provide the necessary waivers to fully deploy Cape's technology 
with public safety professionals in San Diego and surrounding 
communities.
    As the Subcommittee looks at how to more rapidly integrate 
UAS into the national airspace system, we recommend 
prioritizing public safety uses and creating an expedited 
pathway for Federal, state, and local public safety 
organizations to conduct more complex operations. For example, 
similar to Part 107 for commercial operations, Cape recommends 
the FAA allow public safety organizations to conduct more 
complex UAS operations (i.e., flying over people, at night, and 
BVLOS) without receiving a waiver, as long as certain criteria 
are met (e.g., maintaining appropriate coordination with local 
air traffic control operations, limiting flights to pre-defined 
areas bound by a geofence, conducting appropriate community 
outreach, etc.).
    We applaud the Aviation Subcommittee for examining the 
barriers to integrating drones into the existing airspace 
system and would welcome the opportunity to engage in further 
dialogue about ways to unlock the full potential of drones for 
improving public safety.

                                    
</pre></body></html>
